<html>
<title> - PORT DEVELOPMENT AND THE ENVIRONMENT AT THE PORTS OF LOS ANGELES AND LONG BEACH</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 PORT DEVELOPMENT AND THE ENVIRONMENT AT THE PORTS OF LOS ANGELES AND 
                               LONG BEACH 

=======================================================================

                               (110-160)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                    AUGUST 4, 2008 (Long Beach, CA)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-963 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 










































             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland

                                  (ii)

  


        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)




















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Filner, Hon. Bob, a Representative in Congress from the State of 
  California.....................................................     5
Knatz, Geraldine, Executive Director, Port of Los Angeles........    20
Loveridge, Hon. Ronald, Mayor, City of Riverside, California.....    11
Mack, Charles, Director, Port Division, International Brotherhood 
  of Teamsters...................................................    38
Napolitano, Hon. Grace, a Representative in Congress from the 
  State of California............................................     6
Pettit, David, Senior Attorney, Natural Resources Defense Council    38
Rohrabacher, Hon. Dana, a Representative in Congress from the 
  State of California............................................     4
Solis, Hon. Hilda, a Representative in Congress from the State of 
  California.....................................................     7
Steinke, Richard D., Executive Director, Port of Long Beach......    20
Warren, Elizabeth, Executive Director, Futureports...............    38

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cummings, Hon. Elijah E., of Maryland............................    55
Richardson, Hon. Laura A., of California.........................    66

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Knatz, Geraldine.................................................   115
Loveridge, Ronald O..............................................   128
Mack, Chuck......................................................   133
Pettit, David....................................................   139
Steinke, Richard.................................................   159
Warren, Elizabeth................................................   166

                       SUBMISSIONS FOR THE RECORD

Richardson, Hon. Laura A., a Representative in Congress from the 
  State of California, collection of public comments for the 
  record.........................................................    71

                        ADDITIONS TO THE RECORD

American Import Shippers Association, Hubert Wiesenmaier, 
  Executive Director, written statement..........................   177
Coalition for America's Gateways and Trade Corridors, Sharon 
  Neely, member, written statement...............................   181
Coalition for Clean and Safe Ports, written statement............   187
Intermodal Motor Carriers Conference, Curtis Whalen, Executive 
  Director, written statement....................................   196
International Longshore and Warehouse Union, Joe Radisich, 
  International Vice President, written statement................   225
Los Angeles County Metropolitan Transportation Authority, Roger 
  Snoble, Chief Executive Officer; Orange County Transportation 
  Authority, Arthur T. Leahy, Chief Executive Officer; Riverside 
  County Transportation Commission, Anne Mayer, Executive 
  Director; San Bernardino Associated Governments, Deborah 
  Barmack, Executive Director; Southern California Association of 
  Governments, Hasan Ikhrata, Executive Director; Ventura County 
  Transportation Commission, Darren Kettle, Executive Director, 
  joint agency statement.........................................   228
National Retail Federation, written statement....................   264
Retail Industry Leaders Association and the California Retail 
  Association, joint written statement...........................   292

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  HEARING ON PORT DEVELOPMENT AND THE ENVIRONMENT AT THE PORTS OF LOS 
                         ANGELES AND LONG BEACH

                              ----------                              


                         Monday, August 4, 2008

                   House of Representatives
     Committee on Transportation and Infrastructure
    Subcommittee on Coast Guard and Maritime Transportation
                                                    Long Beach, CA.
    The Subcommittee met, pursuant to call, at 3:00 p.m., in 
Port of Long Beach Administration Building, 64 Board Room, 925 
Harbor Plaza, Long Beach, California, Hon. Elijah Cummings 
[Chairman of the Subcommittee] presiding.
    Present: Representative Cummings and Richardson.
    Also Present: Representatives Solis, Napolitano, Filner and 
Rohrabacher.
    Ms. Richardson. The Subcommittee will come to order. The 
Chairman of the Subcommittee, Congressman Elijah Cummings, is 
on his way from San Francisco, where he just commissioned the 
Coast Guard's newest cutter, the Bertholf. Unfortunately, his 
plane has been delayed but he is en route. We anticipate his 
arrival shortly, but he asked us to begin the hearing, and 
therefore I will convene the hearing at this time.
    I ask unanimous consent for his entire statement to be 
submitted for the record, and without objection, it is so 
ordered.
    I ask unanimous consent that Congressman Bob Filner and 
Congresswoman Grace Napolitano, Members of the Committee of 
Transportation and Infrastructure, may sit on the Subcommittee 
of the Coast Guard and Maritime Transportation and participate 
in this hearing.
    Without objection, it is so ordered.
    Also, I ask unanimous consent that Congresswoman Hilda 
Solis and Congressman Dana Rohrabacher may sit with the 
Subcommittee today and participate in this hearing.
    Without objection, it is so ordered.
    Ladies and gentlemen, first of all, let me say thank you 
for all of you being here today. It is quite an exciting time 
for us all to be here, to talk about, I think, one of the most 
important subjects that is facing this particular region today.
    You might hear us give some very formal things. This is an 
official congressional hearing, and therefore, we have to abide 
by the rules and regulations, without any exceptions, and we 
ask for your due diligence in that matter.
    I am going to begin with my opening statement as the Chair. 
However, I am waiting for a document of individuals that I 
would like to introduce, who are here present, and to 
acknowledge them appropriately.
    First of all, let me say thank you to Congresswoman Hilda 
Solis, Congressman Dana Rohrabacher, Congress Bob Filner, 
Congresswoman Grace Napolitano, for being here and 
participating in this hearing today on the port development and 
the environment at the ports of Los Angeles and Long Beach.
    Sitting here today, surrounded by the United States' 
largest port complex, including both the Port of Los Angeles, 
we are provided with a unique insight on the daily operational 
challenges associated with providing goods in a quick and 
efficient manner to America and abroad.
    The ports' impact on the local, regional and national 
economies is extensive, to say the least. As you will hear in 
the testimonies today, these two ports move 45 percent--let me 
repeat that again--45 percent of the entire Nation's cargo 
moves through these two ports, with an overall value, from year 
to year, at a staggering number of $250 billion.
    As a former member of the City Council and State Assembly 
for the last six years, it became blatantly obvious that the 
infrastructure that supports this amazing strong economy is 
aging, it is deficient, and it is unable to meet the current 
demands of projected growth.
    In light of these facts, both the local organizations, the 
two ports that we have here, who will testify today, on the 
state level, State Senator Lowenthal, and now several federal 
proposals that are being considered, it became incumbent upon 
me, as a Member of the Transportation Committee, to make sure 
that we held this hearing today.
    As a Member of that Committee, it is important for us to 
ensure that any discussions of fees that would be collected, we 
need to, number one, validate the need for the fee, and I think 
that is going to be very clear today.
    We have to understand the implication of who pays for that 
fee, where the fees should be expended, and then I think, most 
importantly, we need to make sure that there are mechanisms in 
place, that we continue to have the public's trust. That where 
we say fees will be collected and how they will be used, we 
have to ensure that those proper mechanisms are there, so that 
we can maintain that trust.
    It is of great concern to this Committee that container 
fees could be applied on the local, state and federal level, 
with no coordination and negatively impacting the goods 
movement industry and the affordability of products.
    It would not make sense, and I think most would agree, to 
have three different proposals. So we applaud what the port has 
already done. We also understand that the governor is looking 
very seriously at the state senate bill, and then you have, as 
I said earlier, federal proposals as well.
    So it would be our hope, as Members of this Committee, to 
make sure we are all working in conjunction and not causing 
these negative impacts. Given the rising prices for fuel and 
the dwindling amount of revenue coming in from the federal gas 
tax, all levels of Government, including Congress, must examine 
new and creative ways of raising required capital to expand 
America's bridges, roadways, rail, while improving 
transportation efficiency and capacity.
    As Congress, we are the true keepers of the interstate 
commerce. It is our responsibility to evaluate new solutions in 
this 110th Congress and beyond.
    I applaud Chairmen Cummings and Oberstar for allowing us to 
come directly into the community where we are really being 
impacted, to get the input, and to make sure that the correct 
decisions are made.
    With that, I would like to, before I yield to my 
colleagues, acknowledge a few of the Members who are here, that 
rightly deserve introduction.
    For the city of Long Beach, we have four of the harbor 
commissioners who are here present. Our president of the Harbor 
Commission. Please welcome Mr. Jim Hankla.
    Next we have a dear friend, Mr. Mike Walter, who is also a 
professor at Cal State Long Beach. Welcome, Mr. Walter.
    Next we have our former president, who really I think many 
would say was an integral part of birthing what we call today 
the Green Port, here, in Long Beach. Please welcome, also 
attorney, Mr. Mario Cordero.
    And finally, our newest Member of the team who is here, one 
of our harbor commissioners. Why this gentleman is so critical 
is that he lives on the west side, directly where a lot of this 
activity and cargo goes. He is the neighborhood's conscience. 
Please welcome Mr. Nick Sramek.
    For the Port of Los Angeles, we have one of our 
commissioners who is here. I have known him for quite a few 
years. I also consider him a dear friend and an advocate, not 
only on behalf of the port, but also on the working people who 
move the cargo. He is a member of ILWU but today, he is in the 
capacity of an LA commissioner. Please welcome Joe Radisich.
    And finally, although we have many organizations, and we 
appreciate all of you being here, I have one other elected 
official who I would like to acknowledge we have with us today. 
She is our Long Beach vice mayor, here, in the city of Long 
Beach, but she is also our nominee for the California state 
legislature, and I am sure many of the things that she will 
hear today, she will incorporate as she moves forward as well.
    Please welcome Ms. Bonnie Lowenthal.
    With that, just a few little housekeeping. Because this is 
an official hearing, we will not be able to accept testimony 
from the audience. However, you should all have in your package 
a piece of paper where you can submit your questions, or your 
comments. That will be submitted into the record and we will 
make sure that it will be dealt with appropriately.
    With that, I would like to yield to the gentleman on my 
left, Mr. Dana Rohrabacher.

  STATEMENT OF THE HON. DANA ROHRABACHER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Rohrabacher. Well, first of all, I would like to 
congratulate Laura on just a terrific job of getting us here 
and making sure that this official hearing took place. Laura 
has only been in Congress for a short period of time but her 
influence has been felt, and I can tell you that we have 
established a terrific working relationship, a bipartisan 
relationship that will be put to good use for the people of 
this area, and for the United States of America.
    So thank you very much for the hard work that you have put 
in, which this represents.
    As to the subject today, all of us on this panel have an 
interest in making sure that we have the policies in place that 
will be best for our country in terms of international trade 
and what goes on in our ports.
    A container fee, which is what we are focusing on today, 
will provide the needed resources to clear truck-related 
traffic congestion off of our freeways, to save fuel that is 
totally wasted, which comes directly from that overcongested 
freeway traffic, and let us note that to pay for a new system 
that will get rid of the trucks, and a new system that actually 
ends the wastefulness of fuel that the trucks waste, as well as 
the pollution that goes into the air--that new system is not 
just some kind of a dream.
    We know now, as Laura said, that there are 45 percent of 
the containers that come into the United States come in through 
these ports, and a large percentage of those containers go 
directly on our road system, and that means the congestion, 
that means the waste of fuel in that congestion, and the 
health-related cost to the people who live there.
    That can be fixed. This is not, as I say, an impossible 
dream. But we need the resources, and the resources are 
available through what? Through a container fee which is 
basically a user fee. We are asking those manufacturers, either 
Americans or foreign manufacturers, the Americans, many 
American capitalists have gone overseas, closed up their 
companies here and gone overseas to set up a production 
unit,while it is only fair for those people overseas and 
manufacturers overseas, that they pay all of the expenses 
related to manufacturing their product and transporting their 
product.
    What we have had now is a subsidy by the taxpayers of those 
people who are manufacturing overseas, by providing them these 
great facilities and the roads. And the worst subsidy of all is 
a health subsidy by the people who live in the inland areas 
where these trucks are going through and spitting out this 
pollution.
    It is possible to build a system that will be clean and 
take the congestion off of our roads, and will pay for itself, 
based on this user fee, container fee concept, and I am looking 
forward to working with my colleagues here today in making sure 
that we move forward and get this job done.
    We can do it, and we will do it, and this is the first 
great public step, and I salute you, Laura, for being the 
mastermind behind it, and I pledge myself to be working with 
you, and remember, the full cost of change and making it 
better--we are not going to have to raise taxes, we just charge 
those people who are using the system. That is fair to us and 
it is really fair to them as well.
    So thank you very much. I am looking forward to the 
testimony.
    Ms. Richardson. Thank you, Mr. Rohrabacher.
    I was remiss in not properly recognizing you. He has been a 
Member of Congress for 18 years, a Member of the Oversight, 
International Relations and Science Committee, a special 
assistant to Reagan, and oh, by the way, attended Cal State 
Long Beach. Thank you, Mr. Rohrabacher.
    Next, I would like to introduce--in Congress a lot is by 
order and seniority and all of that. So next in line for me to 
introduce is Representative Bob Filner.
    Mr. Filner came to Congress in 1992. He represents an area 
down in San Diego. He has been in Congress for 16 years, 
started off in local government, a doctor himself, was a 
professor, Chair of the Veterans Affairs, and most importantly 
today, a Member of the T&I Committee.
    Mr. Filner.

STATEMENT OF THE HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Filner. Thank you, Congresswoman Richardson, and thank 
you for bringing us all together. Ms. Richardson has only been 
with us, one of our newest Members, having come in a special 
election. But we have learned already, you don't say no to 
Laura Richardson. When she says be here--I said, well, I don't 
know about my schedule, so she gave me a plane schedule to get 
me here. So she takes charge.
    I am not supposed to do this as someone who is representing 
the Port of San Diego, but I want to say we admire what you are 
doing here. In fact, we want some of the business!
    We are very impressed with the San Pedro ports plan, and 
want to learn what you are doing, what you have done, of 
course, at a time when the Federal Government Trust Funds are 
diminishing rapidly.
    In Washington, we even hear there are some problems with 
the budget in Sacramento, and what you decided to do is take 
things into your own hands, from a local point of view, and 
solve your local problems. As Rohrabacher and I never agree on 
anything, but I see a user's fee is one thing that we can agree 
on.
    So thank you for educating all of us, but helping us become 
leaders for ports all over the country.
    You know, when Mr. Cummings gets here, he represents the 
Baltimore port. I represent the San Diego port. You have got 
some inland people who are part of the inland port concept, and 
of course Mr. Rohrabacher represents Long Beach also.
    So we are here to learn and we are here to extend this to a 
wider area. Thank you, Congresswoman Richardson.
    Ms. Richardson. Thank you, Mr. Filner.
    Next, we have Representative Grace Napolitano. Ms. 
Napolitano came to Congress in 1998. She represents the Los 
Angeles Norwalk area, and really is one of my mentors on the 
Transportation Committee. Well-known in the state legislature 
for her leadership regarding international trade, she is a 
Member of the Transportation and Infrastructure Committee as 
well as Natural Resources.
    Please welcome--and I would be remiss, I would like to 
acknowledge her grandson is in the audience, Nick, who came to 
learn a little bit about what grandma and her buddies do.
    Thank you. Please welcome Ms. Napolitano.

  STATEMENT OF THE HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Napolitano. Thank you, Laura. It is really a pleasure. 
I am from the Norwalk area, and have been in local government 
for a long time. I know the area. I have been in this area for 
almost 48 years. I understand some of the issues that have 
happened, and I was one of the original assembly members on the 
Alameda Corridor when we were holding hearings to set it up, 
and we had hoped by now there would have been a lot more of the 
improvement that we expected to take the trucks off the 
freeway, but coming down 710, that has not happened.
    As we look at what has happened, the growth of the ports, 
the importance of the economy to the State of California, and 
the rest of the Nation--and believe me, folks, in Washington, 
they are beginning to get the idea that if they want on-time 
delivery for the product, they are going to help us do 
something about some of the issues of transportation.
    That is something that is long-fought for, and currently, 
they understand that if we ``get our act together,'' and are 
able to provide on-time delivery, they win. Their businesses 
win.
    It is not only economy but at whose cost, and cause I come 
from Norwalk and I go all the way to Pomona. Well, Alameda 
Corridor is doing well but Alameda Corridor East is not doing 
so well. The infrastructure is still in need of repair. The 
social and economic impact, the environmental impact is such, 
that out of the 54 grade separations from East Los Angeles to 
Pomona, only twenty are scheduled to be separated, which means 
that the other 34 are going to have an economic, environmental 
and safety impact on my whole district, cause it is a long 
snake from East LA to Pomona.
    And unfortunately, we want to ensure that as we are talking 
about container fees, as we are talking about being able to 
help the area, they don't forget those that are in the middle 
and take the brunt of a lot of that transportation going 
through our areas.
    We support much of what is being touted. We want to ensure 
that Bob Filner doesn't end up with a lot of the port traffic 
out in the San Diego area. We want to keep it where it is, but 
we want to ensure not only that you have the best methodology, 
the infrastructure, the technology. And at whose cost? We want 
to ensure it is not the taxpayer again, paying for that. You 
need it, we want to help make sure that we work 
collaboratively, with the county, state and other officials, so 
that we can get this done.
    Right now, about 160 trains go through my district. That's 
expected to double by 2020. That is one train in my district 
every 10 minutes. Guys, I don't think you would want to live 
anywhere near where you don't have much access to be able to 
cross some of those streets.
    What we want to ensure is that we consider everything, that 
people are allowed on the table, and that those that are 
benefiting, as was pointed out before, are at the table putting 
in their fair share.
    We don't want to lose them to any other country, to any 
other state, to anybody else, but we certainly want to ensure 
that we protect those that we represent, including the families 
of most of you who live in the district.
    So with that, Laura, thank you very much. I do sit on 
Transportation, three Subcommittees, Highway, Rail, and Water. 
So you know I have a great interest in this. Thank you, ma'am.
    Ms. Richardson. Thank you, Ms. Napolitano.
    Next we have to introduce Congresswoman Hilda Solis. 
Congresswoman Solis came to the Congress in 2000. She 
represents the Los Angeles area and has been with us for eight 
years. She also had a local government background. She, in 
addition to local government, served in the state assembly from 
1992 to 1994, and then quickly moved no to the California state 
senate before she came here to Congress.
    She serves on the Energy and Commerce Committee, Natural 
Resources, has had a long history of commitment to our 
environment, women, health, and immigration.
    Cal State Poly Pomona, and is also a USC graduate. A part 
of the Carter administration.
    Please welcome Congresswoman Hilda Solis.

STATEMENT OF THE HON. HILDA SOLIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you, Madam Chair, and to my colleagues for 
inviting me, and also a special thanks to, of course, the Port 
of Long Beach for hosting this very important meeting.
    It is exciting to be here because this is a issue that we 
know is not going to go away, and I know we are going to be 
uniquely involved because transportation, passing cargo along 
from one city to another, and to its final destination impacts 
all of us.
    But I think it is very important to underscore what the 
title of this special hearing is, and it is on the port 
development and the environment at the Ports of Los Angeles and 
Long Beach.
    And I am particularly concerned about marine vessels and 
locomotives since we know that they are the largest unregulated 
source emitting more nitrogen oxides than all of the 
refineries, all of the power plants, and 350 other largest 
stationary sources in the South Coast Basin alone. Many of the 
communities on the frontlines of the pollution are 
environmental justice communities, ones that we find here. 92 
percent of the people living within a three mile radius of 
facilities that are cited for violations in LA County, are 
typically minority communities, and 51 percent of those live 
under the poverty level.
    The California Air Resources Board estimates that each 
year, there are about 5,400 premature deaths, 2,400 
hospitalizations, 140,000 cases of asthma, and 980,000 lost 
days of work productivity.
    Environmental conditions significantly impact the quality 
of our lives and the health of our workers and families who 
live near rail yards and face an increased cancer risk from 
increased diesel emissions from expanding goods movement.
    A recent study also indicates that residents in commerce 
near four rail yards are 70 percent to 140 percent more likely 
to contract cancer from diesel soot than people in other parts 
of Los Angeles. While ports and rail yards negatively impact 
the health of our local communities, they also play a large and 
growing role in our economy as we know.
    The Ports of LA and Long Beach are about the fifth largest 
in the world and the Nation's busiest. 43 percent of those 
goods coming into the U.S., they enter through these two ports. 
The amount of cargo handled by the ports is expected to triple 
in the next 15 years, and the value of those goods traveling 
through these ports will increase by more than $400 billion in 
the next 15 years.
    Together we must ensure that our economy grows and that our 
public health care improves for those workers that are here. I 
am pleased that this need has been recognized, and that 
together and separately, the ports are taking steps to mitigate 
these concerns.
    The container fee is a unique approach that will generate 
needed funds to improve infrastructure as was mentioned by my 
colleague, Grace Napolitano, regarding theAlameda Corridor. 70 
miles of mainline railroad travel through the San Gabriel 
Valley. The train traffic through the corridor is expected to 
increase by 160 percent in the year 2020, and without continued 
infrastructure improvement, delays in the rail and highway 
crossings will increase by as much as 300 percent.
    I am interested in hearing today from our witnesses about 
the fee and how it will function, particularly ensuring that 
there is equitable distribution with all the stakeholders, and 
I am hopeful that today we can discuss the impact of air 
quality on our communities.
    And I am also pleased that the ports have taken steps to 
improve air quality as well. That is why I have authored H.R. 
2548, the Marine Vessel Act. It has been supported by both the 
Port of Long Beach and Los Angeles.
    I am eager to hear more about the Clean Trucks Program, and 
also want to commend those individuals, the stakeholders that 
are involved in all of that.
    I also want to commend the longshoremen and the dock 
workers, and also the Teamsters, for coming together. But more 
importantly, the International Longshoremen and Warehouse 
Union, and Pacific Maritime Association, that came to an 
agreement on a very important element in this overall plan.
    So I want to commend you, I want to thank, again, the 
Chairwoman, and I see our Chairman here--welcome--and again 
just want to commend this body for having this hearing and hope 
to partake in other future hearings. Thank you.
    Ms. Richardson. Thank you, Congresswoman Solis.
    The last part I am going to do here is to introduce a few 
other guests and then turn it over to our great Chairman, who I 
am really excited to see has made it, and is going to lead us 
in this hearing.
    First of all, I would like to acknowledge, we didn't have 
his name before and I apologize, the man who represents what he 
calls ``the donut hole.'' He says don't forget what is 
happening in Signal Hill where a lot of our oil is coming from.
    Please welcome from the Signal Hill City Council, Mr. Larry 
Forrester.
    Another champion of our environment, a lady I had an 
opportunity to serve with on the City Council. If you talk 
about the environment, I already introduced Ms. Lowenthal, but 
second to none would clearly be Ms. Rae Gabelich who represents 
the Long Beach City Council. She has been truly an advocate of 
our environment. Thank you for being here.
    Next I would like to introduce Mr. Steven John with the 
Environmental Protection Agency. Have you arrived? Yes; he is. 
So we do have the EPA who is here listening and willing to help 
as well.
    And then finally, I would like to acknowledge Dr. Felton 
Williams with the Long Beach Unified School District. They have 
been involved with what is happening in our environment and how 
it impacts cargo. Thank you, Dr. Williams.
    With that, I am going to turn it over to our able Chairman. 
I have got to tell you that coming into Congress nine short 
months ago, one of the key things of moving up the learning 
curve is getting some good mentors who take you under their 
wing, who have an expertise of the knowledge, and who are 
willing to see this country move forward.
    Chairman Cummings is the Chairman of the Coast Guard and 
Maritime Committee, the Subcommittee. He represents the 
Baltimore area, so he also covers a port as well, so he is very 
well-versed on these issues.
    And I just want to say on behalf of all of us here, thank 
you for bringing this hearing to us.
    Mr. Cummings. [Presiding.] Thank you very much. Thank you, 
Congresswoman Richardson, and good evening, good afternoon, I 
guess, to all of you.
    Today we convene the Subcommittee on the Coast Guard and 
Maritime Transportation to consider the efforts of the Ports of 
Los Angeles and Long Beach to generate the financing needed to 
expand their infrastructure to meet the increasing demands of 
global trade, while working to reduce the release of polluting 
air emissions that result from all aspects of the ports' 
operations.
    The need to provide infrastructure adequate to accommodate 
transportation demands, while protecting our environment by 
reducing air emissions, are concerns of almost every facet of 
transportation policy in this Nation today, including maritime 
and freight transportation.
    Because the Ports of Los Angeles and Long Beach together 
comprise the largest port complex in the United States, as well 
as the largest single source of pollution in California's South 
Coast Air Quality Management District, their efforts to respond 
to these two critical challenges are of great interest to the 
Subcommittee as well as to ports throughout the entire Nation.
    And I emphasize that this is definitely going to be and 
becoming a national issue.
    I thank Congresswoman Laura Richardson, who requested this 
hearing, to give the Subcommittee the opportunity to see these 
issues firsthand. I also commend her for her steadfast 
leadership on the Subcommittee on issues relating to freight 
transportation and for the dedication with which she represents 
the interests of her constituents.
    I also thank all of our colleagues for being here today. I 
know somebody must have said it. This is basically the first 
day of our little break, and they find themselves sitting in a 
hearing room, which they, I guess, were anxious to get away 
from, but they needed to be here, so I am glad they are here, 
and I thank you all very much for being here.
    In an effort to generate additional capital to finance 
needed infrastructure, the Ports of Los Angeles and Long Beach 
will begin assessing an infrastructure cargo fee in 2009, that 
will be expended on infrastructure improvement projects 
intended to ease congestion around the ports.
    The fees are expected to be $15 in 2009, but will 
fluctuate, depending on the resource needs of the projects to 
which the funding will be directed. Additionally, the State of 
California is considering legislation that would impose a fee 
of up to $30 per container passing through the Ports of Los 
Angeles, Long Beach and Oakland.
    Half of this funding would be directed to infrastructure 
projects that contribute to congestion relief, while the other 
half would fund projects to mitigate air pollution.
    The need to generate income to pay for port development has 
been a challenge for decades. In 1986, for example, Congress 
established the Harbor Maintenance Tax, which I note was 
assessed on an ad valorem basis to pay for dredging projects, 
but the application of this tax to U.S. exports was eventually 
declared unconstitutional under the Constitution's Export 
Clause.
    This ruling, and rulings in related cases considering taxes 
and fees, are important touchstones as we consider container 
fees and other revenue generation mechanisms.
    We look forward to examining this very complex issue in 
more detail today.
    In an effort to take decisive action to reduce emissions 
from port-related activities, the State of California, the 
Ports of Los Angeles and Long Beach, and other partners, have 
adopted the ambitious San Pedro Bay Ports Clean Air Action 
Plan.
    This plan is intended to reduce polluting emissions from 
all facets of port operations, including from vessels calling 
on the ports, trucks providing drayage services at the ports, 
and freight railroad and cargo handling equipment operating at 
the ports.
    The part of the plan that has probably received the most 
attention is the Clean Trucks Program. Both the Port of Los 
Angeles and the Port of Long Beach have adopted a Clean Trucks 
Program and the programs have many similarities.
    Both ports intend to assess a $35 fee on 20-foot 
equivalency unit containers, which will then be utilized to 
support the replacement of virtually the entire fleet of trucks 
currently serving the ports, with new clean trucks meeting 
current emission standards.
    Both ports will allow only licensed motor carriers that 
enter into concession agreements with the ports to provide 
drayage services at the ports.
    However, the Port of Los Angeles will phase in a 
requirement, over time, that will allow only individuals who 
are employees of the licensed motor carrier concessionaires to 
serve that port, while the Port of Long Beach will allow 
licensed motor carrier concessionaires to dispatch individuals 
who are either employees of the carrier or owner-operators.
    We look forward to the testimony of Mr. Richard Steinke, 
and the executive director of the Port of Long Beach, and Dr. 
Geraldine Knatz, the executive director of the Port of Los 
Angeles, regarding the efforts of both ports to meet their 
infrastructure needs and to combat air emissions.
    We also look forward to discussing with them the container 
fee programs that have been adopted at the Ports of Los Angeles 
and Long Beach as well as the ports' decisions to adopt 
different models for their Clean Truck Programs.
    The witnesses who will appear on our second panel represent 
critical stakeholder groups affected by the ports' development 
and financing plans, including the International Brotherhood of 
Teamsters, the Natural Resources Defense Council, and the 
members of FuturePorts.
    We invited a number of other stakeholder groups to join us 
today, but they were unable to join due to scheduling and other 
conflicts.
    Many of these groups have submitted statements that will, 
without objection, be included in the hearing record, and we 
invite them to submit statements within the next seven days.
    Finally, I want to thank all of our witnesses for being 
here, and I want to thank all of you for taking up the time to 
be a part of Government. This is how Government works and I am 
glad that you have taken the time to be with us today.
    We will first hear from Mayor Ronald Loveridge, the mayor 
of the city of Riverside.
    Mayor, welcome.

  STATEMENT OF THE HONORABLE RONALD LOVERIDGE, MAYOR, CITY OF 
                     RIVERSIDE, CALIFORNIA

    Mayor Loveridge. Chairman Cummings, Members of the 
California delegation, thank you for holding this hearing in 
Southern California. Kudos also to what was, I thought, an 
excellent summary by the staff of the subject matter today.
    Ron Loveridge, mayor of the city of Riverside. I also serve 
on the South Coast Air Quality Management District Board and 
the California Air Resources Board, SCAG Regional Council, and 
I am the second vice president of the National League of 
Cities.
    I tried to decide who I am speaking for today, and I'm not 
speaking for Los Angeles or Long Beach. I'm not speaking for 
SCAG, I'm not speaking for the air districts, nor the National 
League. I am speaking as mayor of the city of Riverside.
    We are a city of 300,000 people. We are in the inland area, 
which Grace Napolitano knows. Some 4 million in population. We 
would be the 24th largest state if the Inland Empire was a 
separate state.
    What I would like to do today is not read my statement. You 
have my formal statement. What I would like to do is make a 
series of sort of observations off the statement, which is 
before you.
    First, goods movement in Southern California is really a 
national trade corridor. We are talking about more than the two 
ports and their immediate infrastructure We are talking about 
going beyond the 710 freeway. And as a I read the staff 
statement, the staff summary, I did think it effectively 
identified the impacts, the regional impacts of goods movement.
    One example I often use from Riverside, as an archetype new 
economy business, we have a Magnuson Furniture Company 
distribution center. They are headquartered in a small city 
outside of Toronto. They market out of High Point, North 
Carolina. Goods are manufactured in China. They come through 
the ports. They come to Riverside. There is one distribution 
center for all of North America, an example, it seems to me, of 
the global marketplace that we live in.
    I am also a professor at the University of California at 
Riverside, and have done a little teaching on this business of 
goods movement, and what strikes me as you read about other 
countries is how carefully other countries invest in their 
global trade corridors. It is seen as a national mission.
    When we talk about the two ports in Southern California, we 
are really talking about them as Southern California ports, we 
have identified how much comes into the United States and how 
that is expected to grow.
    What I would like to just briefly focus on is on rail 
freight. I could talk about trucks and the impact they have on 
the two major freeways through the inland area, the 60 and the 
10, but let me talk about freight.
    And Riverside is about 60 miles from this place. So we are 
not talking about a short distance, we are talking about some 
60 miles away.
    Our city is really trisected by both the Union Pacific and 
the Burlington Northern-Santa Fe. We have 128 trains that daily 
go through Riverside. We have some 26 priority at-grade 
crossings. The crossing gates may be down for an average of 
three hours per day, and as long, some, as six hours per day at 
our 26 grade separations.
    I got a call last week from a fellow that said he stopped 
and the gates were down, and one train went by. The gate 
remained down and another train went by. The gate remained down 
for a third time and another train went by.
    He said for a half hour he was sitting at that intersection 
waiting to go through.
    Beyond this question of mobility and the inconvenience, 
there clearly are important impacts on public safety, I mean 
fire and police and ambulance, vehicular traffic, air quality 
and economic development.
    We have done a very careful tally of delays at these grade 
separations, and our estimate for 2007, there were 769 times 
there were delays. This is delays for fire, police and 
ambulance. 769 times, for as long as some 32 minutes.
    The challenge the city faces is grade separations, a cost 
somewhere between 30- to $50 million. We have got some funding 
in Proposition 1-B, the state bonds. There is legislation, 
which you may talk about today, that has been introduced by my 
Congressman, Ken Calvert, called the On Time Act, and I 
strongly applaud Calvert's bill as recognizing funding to key 
trade corridor projects.
    You also had mentioned Senator Lowenthal's bill which may 
shortly be on the desk of the governor.
    I was looking at a resolution, which I am sure all of you 
will receive, which is offered by the National League of 
Cities, and I thought I might just hit the top description.
    It says, ``Urging the Federal Government to create 
adequately funded, comprehensive national surface 
transportation plan.'' This is not simply the voice of the 
National League of Cities. It is many voices, when you read 
newspapers, when you read reports, when people look at our 
country. There is a unified call for a comprehensive effort to 
deal with national surface transportation.
    It is time for the Federal Government to take 
responsibility and join the locals and the state, to become 
partners in the funding for national trade corridors.
    We thank you for your attention, again speaking for the 
impacts that these two extraordinary ports have, regional 
impacts on inland empire and specifically on the city of 
Riverside. I would be happy to answer any questions.
    Mr. Cummings. Mr. Mayor, thank you very much for being with 
us and I just want to ask you a couple questions, and then each 
panel member will have five minutes to ask questions.
    Through your work with the National League of Cities, have 
you found that there are other cities confronting rail and 
grade mobility issues, similar to the ones that Riverside is 
confronting? And what do you believe needs to be done to 
enhance our Nation's goods movement network, particularly 
around major port areas?
    Mayor Loveridge. I think the concept has to go beyond 
ports, that we have to see this as a corridor. The last time I 
think we really looked at the kind of national network pattern, 
in terms of trade, was when Eisenhower did it in 1958, and it 
seems to me that is really the call that is before Congress and 
before your own work.
    You hear it again and again from major cities, the kind of 
clash that exists between this increased rail traffic and 
mobility, and I read just one part of the resolution, but this 
is going to be a primary call of the National League, to try to 
call for a comprehensive transportation look.
    Mr. Cummings. Riverside has 26 at-grade crossings that need 
to be reconfigured. How much are those projects expected to 
cost, and have you approached the railroads about potentially 
contributing to the costs of those projects?
    If so, what has been their response?
    Mayor Loveridge. Well, our estimate is that if we were----
    Mr. Cummings. I could almost guess but----
    Mayor Loveridge. If we fund them, we are talking about 800 
million to a billion dollars. That is our estimate of the cost, 
if we indeed build 26 grade separations. The railroads look at 
Riverside and they look at many other cities, and say they 
simply can't do it. They contribute a little bit at the edges, 
but the bulk of the money now is--we are looking at the state, 
we are looking at our own kind of transportation sales tax, we 
are looking at city funds, we are looking at fees we place on 
developers. We are looking for any place we can to locate money 
and we are in the process of building one. We have another one 
out to bid. We have several others in design.
    But it is not easy to come up with 800 million to a billion 
dollars.
    Mr. Cummings. Mr. Rohrabacher
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Mayor, 
did you say that there are 128 trains a day that come to your 
city?
    Mayor Loveridge. Yes.
    Mr. Rohrabacher. Did you say 128 trains a day?
    Mayor Loveridge. That is counting the MetroLink. Yes. 128 
trains go through.
    Mr. Rohrabacher. Okay. And you outlined for us the traffic 
congestion. And you have an air quality problem in your city. 
Do you think the fact that these people standing at railroad 
crossings contributes greatly to your air pollution?
    Mayor Loveridge. It certainly contributes to it. And then 
there are some places in the inland area where it is, 
particularly with railroad yards, where there are very serious 
health effects. There is one place particularly, in San 
Bernardino, our sister city, where it is quite serious.
    Mr. Rohrabacher. You suggested it would cost 30- to $50 
billion?
    Mayor Loveridge. 30 to $50 million per grade separation.
    Mr. Rohrabacher. But did you say the overall cost would be 
30- to $50 billion?
    Mayor Loveridge. Cost would be 800 million to 1 billion. 
800 million to $1 billion, if we did all 26 grade separations.
    Mr. Rohrabacher. But that is in your city or is that all 
the way, the 60 miles to----
    Mayor Loveridge. Well, I have seen one estimate as much as 
$4 billion, the one that Norm King, heading the Traffic 
Institute at Cal State-San Bernardino--I'm not sure where he 
got the number but his estimate was $4 billion across the 
region.
    Mr. Rohrabacher. $4 billion. And how many containers? 128 
trains. How many containers does that represent coming from 
this port to your city every day?
    Mayor Loveridge. I'm not sure what the container count is. 
You watch them go by. There are many of them.
    Mr. Rohrabacher. So it is in the thousands?
    Mayor Loveridge. I would think that is fair.
    Mr. Rohrabacher. All right. Let's just note that railroads 
are a technology that is about maybe 200 years old, the idea of 
pulling something on a rail with a heavy diesel engine, or 
whatever kind of engine it is, and of course trucks are at 
least a 100 years old technology.
    There are some other technologies that are options for you. 
Are you aware of any of the other, MAGLEV technologies that are 
being discussed?
    [Applause.]
    Mr. Rohrabacher. Thank you.
    Mayor Loveridge. I know there are technologies that are 
being discussed, that have been identified from electrifying 
the railways, to look into MAGLEV. For Southern California, 
with our 18 million people, adding 6 more million people, I 
think we must have new transportation forms, or else this whole 
place is not going to work very well. So I'm not sure what they 
are, that as you recognize, they are extraordinarily expensive, 
and to do something different than we are now doing is not 
easy.
    Mr. Rohrabacher. But in the meantime, we are stuck with a 
congestion rate in your city, which is just the same as what we 
have here for members of the panel. The congestion is not only 
a waste of fuel, which adds tremendous cost for our society, 
but has tremendous health impact for your citizens, and we are 
stuck with old technology that is a 200-year-old technology; 
but a powerful force in our society. Let's note: Railroads are 
a powerful force in our society.
    There is a better way. Thank you very much.
    Mr. Cummings. Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. You know, it is 
very important, and I am glad you were able to accept the 
invitation to come here today, because oftentimes we think of 
the cargo activity that goes through in this complex, we tend 
to think of it stopping here on the 710 as you said. So thank 
you for accepting the invitation.
    Mayor Loveridge, a question for you. How would you rate the 
effectiveness--there has been discussion of, as we had the 
Alameda Corridor, us doing a full Alameda Corridor East. What 
are your thoughts on that?
    Mayor Loveridge. Exactly what form that should take, both 
in governance and funding--but no, I think the Alameda Corridor 
should be--we need to see this, again, as a regional effort as 
opposed to simply a local coastal effort. So I know some of 
that is involved in Lowenthal's bill, which he talks about the 
kind of governance if that passes and the funding that would be 
involved, in many ways is like an Alameda Corridor approach.
    Ms. Richardson. Okay. We have the Chairman who really 
helped shepherd through the original Alameda Corridor, who is 
present today, Commissioner Jim Hankla, so I have great 
respect, and that was one of, I think the few projects, that we 
actually completed on time and under budget.
    Mayor Loveridge, you talked a lot about the actual rail 
activity, and what I find particularly interesting, and why 
this hearing was so important, is I was sitting on a 
Transportation Subcommittee hearing when Mr. Calvert, who is 
from your area, presented his bill of On Time, and that is what 
really brought my concern, to be very frank with all of you 
here today, because it was at that point that I saw literally 
the possibility of potentially three different fees that could 
be levied on our cargo activity.
    It is interesting, though, I think you have a very good 
point, that some of these proposals do not include funding that 
could be allocated towards rail grade separations, and so on. 
So if I am hearing you correctly, you are supportive of the 
overall idea but you want to make sure that there is a 
comprehensive plan that is addressing everyone's needs. Would 
that be correct?
    Mayor Loveridge. That is a good summary.
    Ms. Richardson. Thank you, sir. I yield back the balance of 
my time.
    Mr. Cummings. Thank you very much.
    Mr. Filner.
    Mr. Filner. Just two brief comments, Mr. Chairman. One, let 
me play shamelessly to the crowd. I have been working on 
magnetic levitation trains in San Diego to try to solve our 
airport problems. I mean, this is a train, and I have ridden on 
a couple of them that reach speeds exceeding 300 miles per 
hour, and because it runs off electronic-magnetic forces, there 
is no pollution. So we ought to be looking at that, certainly. 
I was playing shameless to the crowd there.
    Let me also put the cost of this into some relative 
proportions, because when we say a billion to solve your 
problems, or 4 billion on the corridor, I mean, it sounds like 
an awful lot of money, which it is, but, you know, in relative 
proportions, I mean our budget is 3 trillion as a National 
Government, and one particular priority, right now, of our 
Government, is a war which is costing us a billion dollars 
every two days.
    Now if we could spend a billion dollars every two years, we 
have the money, as a Nation, to solve these and a lot of other 
infrastructure problems.
    So I would urge you not to think that we are asking for too 
much here. It is a question of priorities. This Nation has to 
focus on these infrastructure priorities. We have the money. We 
are the richest Nation in the history of the world. Much of 
this is not rocket science. It is very common sense, and you 
have shown some of that. I appreciate your testimony, Mr. 
Mayor.
    Mayor Loveridge. Thank you.
    Mr. Cummings. Thank you very much.
    Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chairman, and Mayor, I am 
glad you are here. I am a past mayor, so I am pretty well aware 
of some of the factors that you face in your daily carrying out 
of your duties.
    Unfortunately, in your statement for the railroads, and 
their ability to help solve a problem is very minimal. Dismal. 
I believe it is 5 percent by Federal Government, an that is 3 
percent normally, and then 2 percent in kind, which turns out 
to be nothing. Test we are moving transportation of goods to 
the benefit, and they have had several banner years, and I 
constantly remind them of that, because I think they need to be 
better partners in this effort, to be able to solve the issue 
of goods movement.
    The container fee. Where would you feel would be best put 
in being able to upgrade the infrastructure of the railroad, 
your grade separations, your rail crossings, better signage? 
Where would be the best use for that, if you were able to get 
some of--because you are impacted. And while you say you have 
125 trains a day, I have 160 in mine.
    Mayor Loveridge. You have more than I do. Well, I think the 
important answer is that--I mean the word, kind of 
comprehensive. One, there needs to be a kind of comprehensive 
look at this region. You need to obviously establish priorities 
for projects and then we need to figure out how to fund them.
    I mean, the funding I think if we have a container fee as a 
way to do that, funding is here but we need to establish 
priorities, and there are different ways that we do that. Can't 
do everything at the same time.
    Besides spending the money in Riverside, it seems to me the 
argument needs to be made on a kind of comprehensive regional 
planning effort. I mean, there are transportation commissions 
that have worked these questions through, and I think we need 
to be respectful of their own priorities.
    I don't think the problem is one of, though, comprehensive 
planning. The problem really is the availability of funding and 
then having a governance structure that works.
    Ms. Napolitano. So you want a place at the table?
    Mayor Loveridge. Yes.
    Ms. Napolitano. Okay. We are looking at the ICE-TEA bill 
coming up next year, and I have suggested to some of my 
colleagues that Southern California basically needs to work 
together, both sides, collaboratively, to determine what those 
priorities ought to be, because it is important that we start 
now, and being able to have people come and put their case 
before a group of legislators, to find out where it is going to 
be best suited to start the prioritization, and with focus.
    Do you have any suggestions on that?
    Mayor Loveridge. Well, we have gone through this business 
of having a regional transportation plan. I mean, SCAG, 
Southern California Association of Governments has done that. 
But I think your invitation is really an important one, and 
which we ought to respect. We ought to try to figure out what 
are the particular priorities of Southern California and then 
come to our own delegation and say here is our take, what can 
we do to support you in advancing that agenda?
    One of the problems, at least my own judgment, one of the 
problems we have in Southern California is each sort of agency, 
city, area, has sort of been on its own, and I think we need to 
somehow----
    Ms. Napolitano. Bring it together.
    Mayor Loveridge. --come together, and together, 18 million 
people can be an important force.
    Ms. Napolitano. Well, when the state assembly and the 
senate, back during the time of Mr. Hankla, I remember the 
Subcommittee with Betty Carmack, and myself, and several of the 
other Members, who were working with Juanita Millendar-
McDonald--may she rest in peace--on being able to set the 
Alameda Corridor, and it was deemed the best solution, was to 
trench it. I just wish there had been a little more foresight 
in our area, that is on the Alameda Corridor East, to trench 
it. Then we wouldn't have to worry about pollution, safety 
issues, environmental and economic impacts.
    Is there any suggestions from any of the agencies to look 
at trenching, to be able to get----
    Mayor Loveridge. I think the experience of Placentia, I 
don't think so. I've not seen trenching raised, as far as I 
know, by any transportation commission or any city.
    Ms. Napolitano. Thank you, sir, for your answers, and Mr. 
Chairman, I yield back.
    Mr. Cummings. Thank you very much.
    Ms. Solis.
    Ms. Solis. Thank you, Mr. Mayor, and I appreciate all the 
other hats that you wear, and wanted to touch base a little bit 
about what you didn't talk about, the environmental justice 
issues, and I know that you are a representative on various 
regional air quality groups, and wanted to hear a little bit 
about that, and what you feel we, as a Federal Government, can 
do to help provide any direction or mitigation there as well, 
because in the end analysis, much of the cargo and rail traffic 
maybe begins here, but it doesn't certainly end in Riverside.
    But certainly there are different impacts, and I know that 
the community out here in Long Beach and San Pedro have been 
assaulted, has been under assault because of the soot and 
diesel emissions that have very, very devastating impacts, 
health impacts that perhaps we are not even factoring in also 
as a part of this cost, that we should be looking at. Any 
thoughts?
    Mayor Loveridge. Research now is pretty clear on the health 
effects immediately around the ports. Number one. Number two is 
it is very clear, when you look at the sources of pollution, 
air pollution, a major role that this whole complex does, not 
simply to the areas immediately around it but as it pushes 
further inland, there is--I am, in some ways, representing the 
inland area. We argue that we are a downwind area, and so much 
of the--you look at the high measures of particularly ozone, 
and at particulate matter, you find it in our areas, and it 
comes--some of that is coming from pollution at the port, some 
of it is in the goods movement of trains and trucks as they 
move goods and services to the east of us.
    There are a number of major important steps this port, both 
ports have taken. CARB has taking some important steps, 
recently. You can see it in the materials before you. The South 
Coast is going to take on, and I think has played a significant 
role. And one of the reasons for that I think is--my own 
judgment--is that we understand that sort of clean air and good 
air go in tandem with fast freight, and we have got to see them 
as mutual objectives. They are not separate objectives.
    Ms. Solis. But one of the arguments that is always made 
when we talk about the efficiencies of scale, and what it means 
when you start to clean up areas that are heavily contaminated, 
is that there is a cost, either to jobs or to the industry. 
What would you have to say about that?
    Mayor Loveridge. Well, South Coast Air Quality Management 
District, in my judgment, is the best in the world at what it 
does. There used to be some alarm about its economic costs. 
What are we? the 10-th largest economy in the world in Southern 
California. It is a vital, exciting place. Having clean air, in 
my judgment, has helped that rather----
    Ms. Solis. Can we do both?
    Mayor Loveridge. Yes.
    Ms. Solis. Can we meet those two objectives? I know that my 
colleagues on the Subcommittee have much more knowledge about 
the amount of revenue that is brought into the country 
regarding the importation of goods, and is perhaps their need 
to take a closer look at those products that are brought in, 
those companies that are involved in that, and asking them to 
help pay, and share the burden, so that we have also people who 
work in the industry, at the ports and in the trucking 
industry, have a fair share, and availability to have a good 
living.
    What concerns me, that we haven't talked about yet, is the 
impact in the truck program and the differences between Los 
Angeles and Long Beach. It is an economic impact, and we need 
to talk also about what that is going to mean for those 
independent truckers, many of whom are immigrant, many of whom 
are Latino, who are looking at not being able to get a license, 
not being able to associate with the appropriate fleet agencies 
because of rigorous requirements, and what happens to them? And 
if they even have an ability to be a part of a collective 
bargaining agreement that might, in Long Beach work well, but 
we are finding that there are some different regional--you 
know, next-door neighbor here, Long Beach, may have a different 
take on that.
    Those are issues too, that we need to think about, and I 
would like to hear very quickly, cause I know my time is 
running out, if you can address that.
    Mayor Loveridge. Well, I think the major point that one 
recognizes is that these things are going in tandem. I think we 
used to think about clean air and fast freight as separate kind 
of enterprises. We need to join them together, and as we move 
for faster freight, they need to be connected with what we can 
do for cleaner air.
    I mean, that is the overall summary point.
    Ms. Solis. And I agree with you on the regional aspect. It 
is not somebody else's problem, it is our problem, and we have 
to come up with collective solutions as stakeholders.
    Mr. Cummings. Thank you very much, Mr. Mayor. We really do 
appreciate your testimony. I mean, you have brought some things 
to our attention, and I guess the issue becomes exactly to how 
far these fees will stretch and where will they go. We 
appreciate it, and you may appreciate more, in answering, I 
think, one of Ms. Napolitano's questions, how nice it is to 
come from a small state. There are only eight Members of the 
House from Maryland and so it is real easy for us to get 
together. I mean, you can fit us in a phone booth. But I do 
appreciate what you have brought to us, and we do thank you for 
taking the time to be with us.
    Mayor Loveridge. Well, thank you for the invitation, and 
thank you for the questions, and godspeed on your work.
    Mr. Cummings. Thank you again. As other witnesses come 
forward, Richard Steinke, the executive director of the Port of 
Long Beach and Ms. Geraldine Knatz, the executive director of 
the Port of Los Angeles, I might say that you have heard 
already some issues that have been brought up by the members of 
the panel here, and if there are some of these that you would 
like to address, like what was just brought up by Ms. Solis and 
others, feel free to intertwine those in your comments. Because 
one of the things that we try to do in these hearings is we try 
not to be so rigid that we don't have the effectiveness that we 
could possibly have.
    And again, I want to thank both of you for joining us 
today, and we will hear from you first, Mr. Steinke.

RICHARD D. STEINKE, EXECUTIVE DIRECTOR, PORT OF LONG BEACH, AND 
    GERALDINE KNATZ, EXECUTIVE DIRECTOR, PORT OF LOS ANGELES

    Mr. Steinke. Thank you, Mr. Chairman, Members of the 
Committee, and invited Members of Congress, my name is Richard 
Steinke and I am the executive director for the Port of Long 
Beach.
    I would like to thank you for the opportunity to speak 
before this Committee this afternoon. This is very, very 
important, that these issues are discussed in this kind of 
forum, because this is the future of goods movement, and this 
is how Government works, and Mr. Chairman, I think your comment 
was very appropriate, in your opening statement, that this is 
the process that gets things changed.
    As you know, the Port of Long Beach is the second-largest 
seaport in the United States. Last year, this port handled 
about 7.2 million containers known as 20-foot equivalent units, 
or TEUs, and we use that as a barometer of the success, or the 
business of ports around the Nation and around the world. 
Combined with our partner, the Port of Los Angeles, both ports 
handled over 15.7 million TEUs, which equals over 40 percent of 
all containerized goods entering United States ports.
    Due to the increase in consumer demands, both ports are 
expected to meet the growth in international cargo, which is 
estimated to more than double, from 15 million TEUs in 2007 to 
over 35 million TEUs by 2020.
    In an effort to reduce emissions related to current and 
future trade demands, the Port of Long Beach has adopted some 
very aggressive environmental mitigation programs to help 
improve air quality.
    The Board of Harbor Commissioners adopted the Green Port 
Policy in 2005 to protect the community from harmful 
environmental impacts related to port operations, to promote 
sustainability, and to employ the best-available technologies.
    We recognized that we could no longer continue to move 
cargo without recognizing the environment footprint and the 
impact on our communities.
    In November 2006, the Long Beach and Los Angeles Board of 
Harbor Commissioners met in an unprecedented meeting, and 
approved the Clean Air Action Plan, a plan to reduce emissions 
associated with port operations by more than 45 percent over a 
five year period.
    As the most comprehensive air quality mitigation plan being 
implemented at any port complex in the world, the Clean Air 
Action Plan is expected to cut particulate matter pollution, 
nitrogen oxide and sulfur oxide from source categories that 
include ocean-going vessels, harbor craft, cargo-handling 
equipment, railroad locomotives, and heavy-duty trucks.
    As part of the Clean Air Action Plan, over the next five 
years, the San Pedro Bay ports required 16 switching 
locomotives and thousands of pieces of cargo-handling equipment 
to be replaced or retrofitted, to meet or exceed U.S. EPA 
emission standards, that required cargo and cruise ship 
terminals to be equipped with shoreside electricity as well as 
look at new technologies to help further reductions.
    A key component in the Clean Air Action Plan is the Clean 
Trucks Program, as Congresswoman Solis referred to.
    A landmark plan that will dramatically modernize the port 
trucking industry and significantly reduce truck-related air 
pollution, by requiring all heavy-duty trucks operating at the 
ports be replaced with newer cleaner trucks that meet USEPA 
2007 emission standards by 2012.
    The Clean Trucks Program is expected to result in truck-
related air pollution reductions of approximately 80 percent.
    Although the ports do not own or operate the drayage trucks 
serving the port terminals, the ports have determined that a 
progressive ban, which will begin October 1, 2008, on dirty 
trucks, is the most direct way to cut pollution and reduce 
public health risks posed by dirty diesel trucks, on a 
timeframe that meets the needs of our local communities.
    Last December, both ports approved the cargo tariff, the 
clean truck fee to help fund the Clean Trucks Program, which is 
estimated to cost $2.2 billion. The fee will be charged to 
cargo owners, the beneficial cargo owners, that will place a 
$35 fee on every loaded TEU entering or leaving any terminal, 
by truck, beginning in October 2008.
    This fee is expected to generate $1.6 billion, in addition 
to the $143 million that has been committed by both ports.
    The ports are also expecting to receive $98 million from 
the state Proposition 1B bond, which California voters approved 
to help pay for major transportation and air quality 
improvement projects.
    As part of the Clean Trucks Program, only port-permitted 
concession trucks will be allowed to work at the San Pedro Bay 
ports. The concession system is designed to provide oversight 
and accountability for the trucking industry, and will ensure 
that our port's aggressive clean air plans are being met.
    Although the Ports of Long Beach and Los Angeles jointly 
adopted the Clean Trucks Program, and progressive ban on 
trucks, our respective boards have taken slightly different 
approaches to the concession program for the plan.
    The Clean Trucks Program at both ports require licensed 
motor carriers in good standing, and with a valid license, and 
to operate clean trucks consistent with the Clean Trucks Plan 
requirements and our port tariff. The major difference in the 
plan is that the Port of Long Beach concession system allows 
licensed motor carriers to use employee drivers, independent 
contract drivers, or a combination of employee and contract 
drivers, as they do now.
    Choice in the drayage industry is important, and the Long 
Beach plan, drivers can choose to be an employee or be their 
own boss while accomplishing the real goal of the Clean Trucks 
Program, and that is cleaning the air. Simply put, we want to 
clean the air as quickly as possible.
    As part of the concession system, the Port of Long Beach 
also requires licensed motor carriers to offer health insurance 
to all drivers.
    In addition, Long Beach will grant five year concessions to 
the licensed motor carriers who pay a one-time application of 
$250 versus a $2500 fee at the Port of Los Angeles, and a 
concession fee of $100 per truck, per year, in order to operate 
successfully in the ports.
    In addition to the Clean Trucks fee, the ports approved a 
tariff called the Infrastructure Cargo Fee to help finance 
harbor area, port-related infrastructure projects, and I would 
like to emphasize that those are harbor area, port-related 
infrastructures, projects unlike the senate Bill 974 which 
really looks at the infrastructure projects on a more regional 
basis.
    The money generated by this fee will be used to augment and 
complement funding received from federal and state sources, 
like Senator Lowenthal's container fee bill. The ICF, or the 
Infrastructure Cargo Fee, is separate and distinct from the 
Clean Trucks fee, and will be charged to cargo owners by 
placing a $15 fee on every loaded TEU entering or leaving any 
terminal by truck or train, beginning January 1, 2009.
    Direct industry user fees are needed because of the 
limitations in federal, state, local and port funding for high-
priority projects like replacement of the Gerald Desmond 
Bridge. The fee was derived by estimating the cost of key 
harbor infrastructure projects that were identified by both 
ports and regional transportation agencies.
    The Infrastructure Cargo Fee will allow the ports to raise 
funds to pay for the projects as they progress, and the ICF 
establishes a way for the goods movement industry to pay for a 
share of the needed infrastructure improvements.
    Mayor Bob Foster, the mayor of Long Beach, and the board of 
Long Beach harbor commissioners, have committed that projects 
identified to be funded with the Infrastructure Cargo Fee will 
not move forward before the port moves forward on 
implementation of environmental projects.
    So this Infrastructure Cargo Fee and the Clean Trucks fee 
are linked together. One will not move in advance of the other.
    In order to improve air quality and to move goods more 
efficiently from the San Pedro Bay ports to regions across the 
Nation, additional investments will be needed to be made to 
fund environmental and infrastructure programs at the Nation's 
ports.
    The Port of Long Beach looks forward to working with the 
Committee, and other key stakeholders, to develop progressive 
environmental policies, and on the upcoming transportation 
authorization bill, to develop a list of critically-needed 
infrastructure projects that will allow goods that fuel our 
economy to continue moving.
    I think we need to change the behavior of the waterfront 
that has been taking place for many, many years. We are doing 
that here at the Port of Long Beach and the Port of Los 
Angeles. We have congestion pricing. We have done a number of 
things with incentives.
    You are seeing things like alternative fuels. We are 
investigating the alternate goods movement system that 
Congressman Rohrabacher has been mentioning.
    And so we are doing things that no other port complex in 
the world has attempted to do. We need to change the way we 
think about goods movement. We need to look at a systemwide 
approach at addressing the problem, which has not been done in 
the United States in terms of marine transportation.
    Thank you for the opportunity to testify in front of your 
Committee.
    Mr. Cummings. Thank you very much.
    Dr. Knatz.
    Ms. Knatz. Mr. Chairman, Members of the Committee, thank 
you for the opportunity to appear on behalf of the Board of 
Harbor Commissioners and Mayor Villaraigosa, and the Los 
Angeles City Council, welcome to the San Pedro Bay Port 
Complex.
    I don't want to duplicate comments that were made by Mr. 
Steinke, so I think I am going to focus on trying to answer 
some of the questions that you raise, specifically with respect 
to the Infrastructure Cargo Fee. And I should say we call it an 
Infrastructure Cargo Fee instead of a container fee, because 
although it originally will start out on containers, at some 
point we do intend to expand the fee to other commodities.
    The Infrastructure Cargo Fee complements our Clean Air 
Action Plan because it deals with the way to improve goods 
movement while we also work to reduce emissions.
    To address what we view as the existing transportation 
system deficiencies, and to accommodate our future traffic, we 
have actually, over the past several years, expended millions 
of dollars on critical intermodal transportation projects, 
projects of national significance. But it is still not enough.
    We have identified about $3 billion in immediate 
infrastructure improvements that are needed in and just 
directly adjacent to the port, and these also are 
congressionally-designated projects of national and regional 
significance, and high-priority projects.
    Because these projects cannot, and arguably should not, be 
paid for entirely with federal and state funds, about three 
years ago, the two ports started working together on a 
container fee for local infrastructure, and we really took this 
on ourselves, for a couple of reasons.
    First, we thought if we didn't do it, there would likely be 
state fees, and possibly not on terms that we could support. 
Second, we saw the value in having a dedicated revenue stream 
to match bond measures devoted to goods movement. And three, we 
came to the conclusion we had to be really a self-help port 
complex. We hope that our fee will complement the next Federal 
Surface Highway Transportation bill, and we hope that that has 
a new dedicated federal account to support goods movement and 
environmental improvements associated with goods movement.
    But what was really unique about our Infrastructure Cargo 
Fee is that we used a bottoms up approach to develop the fee 
structure. The fees are established through the result of a 
thorough technical analysis and a three-year dialogue with 
industry that really began with agreement on what projects 
should be funded.
    Throughout this process, we worked to address industry 
concerns, they would agree to pay their fair share, and they 
wanted to see the results for their money. So we agreed that 
the fee would only be collected after an environment impact 
report was certified for that project, and these days, getting 
any EIR certified in Southern California is quite a feat; and I 
think it would be fair to say that getting to this stage now 
with the ports actually means something, because our EIRs are a 
primary vehicle for how we are imposing the measures in our 
Clean Air Action Plan.
    The infrastructure fee rate was established at a level 
based on a detailed and fair traffic nexus for each specific 
project.
    In other words, if 60 percent of the traffic that used a 
bridge, or any other infrastructure project, was cargo-related, 
then the container fee had to be set high enough to collect 60 
percent of the cost of that bridge.
    Because our fee will be made up of a composite of fees for 
specific projects, all on different construction schedules, we 
anticipate that it will start at approximately $15 a TEU, go as 
high as $18 a TEU, based on the known list of projects.
    Once the industry's share was established, we then created 
a plan of finance for each of the proposed projects, which 
included contributions from the ports and a proposal for a fair 
share of the state bond money, and with that framework in 
place, then our Boards, in January, adopted the Infrastructure 
Cargo Fee.
    By the year 2014, we will have complete funding for $2.9 
billion worth of port-adjacent bridge, highway projects, and 
rail improvements. And we adopted the infrastructure fee 
separate from the clean trucks fee because we recognize that 
the infrastructure projects take a long time, and as some 
projects are finished, new projects would come along.
    We believe that the approach we took, the bottoms-up, 
crafted a program that helped us avoid litigation, and to date, 
there have been no challenges on the fee, and we do not expect 
any.
    The fee is collected locally and the money stays locally. 
Because our local project focus fee--beyond our local project 
focus fee, we also recognize the need for industry fees to fund 
regional projects. In fact, the port has considered collection 
of a fee for regional infrastructure, initially identifying the 
Alameda Corridor East Project, and a major rail intersection 
known as Colton Crossing, but we actually dropped our regional 
fee in deference to the legislation that was pursued by Senator 
Lowenthal.
    Even though we tried to work the same strategy with 
industry on the regional fee, making sure the project was used 
for projects that industry supported, I cannot say, with 
absolute certainty, that we were able to develop the same 
support for the regional fees that we did for our local fees. 
But we are committed to taking up the issue on regional fees 
again, should it ever become necessary.
    We are aware that the Committee may be examining national 
infrastructure fees.
    Mr. Chairman, from our perspective, any national container 
fee now would be duplicative of what is in place here in 
California. We already have to work through some overlap, our 
ICF has, with Senator Lowenthal's proposed state fee and the 
rail portion of our infrastructure fee.
    We urge the Committee to ensure that port regions that have 
taken the initiative to help themselves not be penalized by yet 
more fees, and that any federal plan provides exemptions for 
independent action on the part of the state or the port region.
    Mr. Chairman and Members of the Committee, thank you for 
your interest and that concludes my prepared statement.
    Mr. Cummings. I want to thank both of you for your 
testimony and as you were talking, you know, sometimes in these 
hearings, what happens is that people come after you and then 
you can't answer their questions because you have gone, and so 
you're not testifying anymore.
    And so I want to ask you a question about what 
FuturePorts--I am sure you are very familiar with them--have 
said. They claim that not enough analysis has been conducted of 
the potential economic impact all of the fees proposed to be 
levied on these containers may create.
    And so you believe that the market, particularly in this 
difficult economic climate, will bear all of the fees that are 
proposed for the ports?
    And I know in Baltimore, we compete fiercely. I mean, it is 
a fight, trying to get every single bit of business we possibly 
can get for our port.
    And I am just wondering what, if any impact, you all think 
this might have.
    Mr. Filner. Could you yield for just a corollary question. 
I don't know what the average size of a concession here would 
be or how many trucks they would have. But is there such a 
thing as an average cost, that would be meaningful for us to 
know, to an average business?
    Ms. Knatz. Okay. Let me address the first question. Mr. 
Chairman, we did look at this issue. You know, you have sort of 
the pile-on effect when you have the PierPASS fee, and then we 
have our clean truck fee, and then we have the infrastructure 
fee, both the local, and potentially, a regional state fee.
    We really felt like we got to the point where that was it, 
the system could not really stand any additional fees, so a 
national fee would really, I believe, affect our competitive 
position.
    I think the fact that we have worked with industry on our 
regional fee, they recognize that, and they supported it 
because if it increases velocity on their end, that is cost 
savings for them, and so it was important to bring them in on 
the process.
    We charge our fees against the cargo, the beneficial cargo 
owner, it is not paid by the terminal operator. So we tried to 
get the fee as close as possible to the goods, and in that way, 
kind of spread the fee among the greater number of users.
    Mr. Steinke. Mr. Chairman, I would just add that we have 
done some elasticity analysis for the ports here in San Pedro 
Bay, the Southern California Association of Governments has 
also done an elasticity study, and there is a point that there 
is significant diversion of cargo by, as Geraldine said, the 
pile-on effect. If there are too many fees, cargo will move 
some place else. We recognize that.
    But as Geraldine said, if we keep the fees associated with 
the cargo itself, not the marine terminal operator, not the 
ocean carrier, and not the licensed motor carrier, not the 
trucker, and it goes to the retailer that is bringing in the 
goods, I think there was some analysis done that it is pennies 
on an Ipod. It is, you know, 50 cents on a pair of Nikes.
    So that the hit to the consumer is fairly di minimis, even 
though the charge to the cargo owner is fairly significant on a 
per TEU basis.
    Mr. Cummings. Dr. Knatz, you have sent quite a bit of your 
testimony seeming to be concerned about a national fee. Can you 
talk about that for a moment. Just what is your biggest 
concern? That it will be harmful, or it would supersede your 
fees?
    Ms. Knatz. We would have several concerns. First of all, 
one of the things we like about our fee is it is collected 
here, it stays here, and it delivers the project. We are 
committed to carrying out the projects.
    Oftentimes when you pay a fee, and if it goes to 
Washington, then sometimes you have to fight to get the money 
back. So that would be one issue. And the second issue, we have 
been--I think we are pretty clear on what projects need to be 
done, both in the port region and regionally. The Mayor 
mentioned Alameda Corridor East.
    That is also the number one project on our regional list as 
well. I think there is a lot of consensus of the major good 
movement projects that need to be done in Southern California. 
So I think we are covered with the regional fees and the local 
fees, and as I said, some things will get done, the bridge will 
get done and then there will be the 710 that comes after it, or 
some new technology thing that we want to do, that Congressman 
Rohrabacher is looking at.
    There is always going to be something. But we are sort of 
managing the process and making sure that, you know, the fee 
will go up and down, and we deliver on what we collect.
    Mr. Cummings. just one other question. Mr. Steinke, when 
Congress enacted the Oil Pollution Act of 1990, Congress phased 
out the use of the single haul tankers, and why would a simple 
phaseout of old trucks, coupled with the introduction of a 
mandate requiring the use of green trucks, accomplish some of 
your goals, and why wouldn't the market fuel a demand for 
trucks meeting the 2007 emission standards?
    Mr. Steinke. Mr. Chairman, I think we have experienced what 
the market can and cannot do without some kind of regulation 
here in San Pedro Bay. I think we know that the Clean Trucks 
Program, you know, with the concession program that both LA and 
Long Beach have proposed, provides the momentum and the 
motivation and the incentive for the truck fleet to be changed 
over.
    We are not talking about a insignificant number of trucks. 
We are talking about 16,000 trucks that need to be replaced 
between now and 2012. And so we need a mechanism that moves the 
market more quickly than the market would move itself, in order 
to stimulate a changeover, and that is why we have adopted the 
Clean Trucks Program.
    Mr. Cummings. Thank you very much.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you. It was such a pleasure to hear 
you describe why the container fees should be kept here, 
locally. It is the argument that I made three years ago when 
both ports opposed the legislation that I had, that would have 
done exactly what you said.
    So thank you for indulging me on ``I told you so.'' But it 
is always good to have people coming over to your side rather 
than having to admit you were wrong and going to their side.
    But anyway, let me note that the ports--and again, I am 
going to admonish the ports on behalf of my colleagues, but I 
am sure they feel the same way. Look, when you are talking 
about what we are going to do, and where the fee is going to be 
put, and how that is going to affect this and that, you are 
acting like you are the big decision makers. I want to tell you 
something. You are not the decision makers. The region is the 
decision makers here.
    Now I am represent you in the United States Congress, but I 
represent a lot of other people in the United States Congress 
too. Whatever comes out of this idea for container fees and 
reforms, and modernization of the port system here, in Southern 
California, the goods movement system, is going to be a 
regional decision, and it is not going to be the ports having 
control of a certain amount of money and deciding where it 
goes. That is just not going to be it.
    We are going to be working together, and I am working 
together with our colleagues here, to make sure that we come up 
with something that is the very best solution, and it is a 
long-term solution and not just stop-gap solutions.
    So let me first admonish you, I think that that attitude 
was very present in your testimony today, and I will leave that 
to my colleagues to verify, whether they caught that or not; 
but I certainly caught it.
    Second of all, a lot of times I come up and, you know, try 
to deal with the ports, and I do not get what I consider to be 
a cooperative spirit. I mean let me just note.
    When I first talked about going at night, which was of 
course when we redistricted back into here, everybody said it 
wouldn't happen, and I got more guff from people trying to say 
that Dana Rohrabacher is being so, you know, how would you say 
it? I am not being responsible and I am not being practical 
enough to let the ports understand that they, as they explained 
to me, you can't open the ports at night because nobody will go 
then. Well, we have PierPASS now and 40 percent of the trucks 
are going at night.
    And then of course we started talking about the source of 
income for the container fees, and again received a bad 
reception, and now it is receiving a good reception.
    Let's go back to now, to the latest, which is this Clean 
Trucks Program. What is it that makes you seem to think that 
you guys can determine the best way to accomplish a goal?
    Is not the goal to bring down the emissions coming from the 
trucks that service your ports? Why is it that you had to come 
up with a complicated system of leasing trucks and involve 
yourself directly in the implementation of trying to achieve 
the goal, rather than permitting, quote, the market to work and 
saying, if you could achieve this level of emissions, that is 
fine, and just insist that that level of emissions be enforced.
    Mr. Steinke. Well, Congressman, I think that we have seen 
what the industry can do and what it can't do on its own, and I 
think that was the reason why the two ports, or the two cities 
have gotten together and worked together on a Clean Trucks 
Program, that through subsidies and incentives moves people 
into new trucks as quickly as possible.
    Mr. Rohrabacher. No, this is not a Clean Trucks Program. 
But it is not a Clean Trucks Program. It is a New Trucks 
Program. It is an assumption that new trucks are a more cost-
effective way to deal with the issue than perhaps offering some 
type of effort to upgrade old trucks. And I will suggest, that 
as a senior Member of the Science Committee, I came to the 
ports for the last year and a half, suggesting that there might 
be some technology efforts that would save--you know, we are 
talking about, say, tens of thousands, if not hundreds of 
thousands of dollars per truck, and the ports were unwilling to 
test the new technologies that I was talking about.
    You know--look. We are all in favor of the trade that you 
are talking about. Mr. Chairman, I just think that we have to 
make sure that we open up this whole dialogue and this 
discussion, so that we are doing the most effective thing, at 
of course the most reasonable cost, and I don't think that we 
have had that same type of open discussion with the policies of 
the ports in the past, and I would hope with the Clean Trucks 
Program, I would hope it is not just going to lead us to, 
number one, a situation where we are wasting taxpayers' dollars 
that could have brought down emissions.
    There is a possibility the technology that I was talking 
about, which the final test will be out this week, would have 
lowered the emissions to make sure that older trucks are 
actually cleaner than the newer trucks, with the attachment on 
to the engine.
    One last thing. How much does it cost to take a container 
from the port to the inland empire, to the rail heads in the 
inland empire?
    Mr. Steinke. I think that dray cost is anywhere between 
150- to $180; somewhere in that range.
    Mr. Rohrabacher. Someone told me it was $480. Is that way 
off?
    Mr. Steinke. I don't think it is that much.
    Mr. Rohrabacher. To hire a truck to go from dockside to 
inland empire railhead?
    Mr. Steinke. I don't believe the one-way trip is that much; 
no.
    Mr. Rohrabacher. Thank you. Thank you very much. Thank you, 
Mr. Chairman.
    Mr. Cummings. Let me just say this, as we move to Ms. 
Richardson, it strikes me, as I listened to what you just said, 
and listened to the testimony of our witnesses, that the whole 
issue of the regional decisions make a lot of sense, because, 
in a way, what the witnesses have testified to, at least one of 
them, I can't remember which, is that when you talk about, say, 
the container fees, it is going to cost something on that Ipod, 
and those Ipods are going to be sold all over California, I 
mean, all up and down the coast here, and so it seems to me 
that it makes sense that you have the regional decisions.
    The other thing that you have got to keep in mind--this 
issue is one which is going to call for everybody, pretty much 
to be on board, and when people feel that they have a part of 
what is coming out of this revenue source, I think, and that 
they actually have a hand in it, in deciding where it goes, so 
the money, of course it is spent effectively and efficiently, 
they are more apt to be a part of it.
    And I think that while some may look at Mr. Rohrabacher's 
comments as strong, I think there is certainly something that 
is, you know, that we all need to consider there.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. First of all, I 
will take a slightly different approach.
    Let me say again, since I started here as being on the City 
Council and then the state legislature, I think it is important 
to kind a create a little framework.
    I clearly understand, and absolutely, Mr. Rohrabacher, and 
now the Chairman, but what I want to reiterate out of the 
testimony of our witnesses is something unique that is 
happening here. A lot of ports are talking about, because of 
the impact of the traffic, they want to do something at night.
    Well, thank goodness, we have two ports that have stepped 
forward, who have actually done that, and they have implemented 
PierPASS. We have also had a lot of ports talk about the 
negative impacts, and fortunately, we have had two ports who 
have come forward, more than any other ports in this Nation, 
and have established this Green Port Program.
    We also have a lot of ports who talked about all different 
things that we need to do, but this is really a miracle. We 
should realize that it is happening where you have the two 
largest ports in the Nation, who are actually sitting next to 
each other, talking to each other, have worked with each other 
for two or three years, and have developed a plan to do so.
    So I think it is also important to--and I wanted to 
highlight that, because I was here when all that was 
happening--that what I heard in your testimony was not a 
resistance to working on a regional plan, or a resistance of 
understanding there might be a national plan.
    It was just that we have gotten to the point, in this 
particular community, where we can't wait any longer, where the 
aging infrastructure, the diaper that is hanging over the 
Gerald Desmond Bridge, the highest rate of asthma and cancer in 
the country is right here--we had to move now. And that is what 
I heard of the testimony.
    And now what this Committee is saying, which is why we 
wanted to make sure to have this hearing here, is that 
unfortunately what you are hearing my colleagues talk about is 
that Representative Calvert's bill has brought to the 
attention, with this Committee, that we have a role as well, 
and that is what our responsibility is going to be.
    Now that we have heard all this, we hear what you are 
doing, and your plans, but we also have to acknowledge that we 
now have to step up. We have to make sure that if the regional 
stakeholders are not working with you, and it is not getting 
done, what you are hearing all these people here saying is, 
well, then we have got to make sure that that happens.
    And so I just wanted to provide that, just as a background 
of your comments.
    Now Mr. Steinke, you mentioned about the elasticity of a 
potential fee, and I thought I remember reading somewhere, that 
that could be anywhere between 100 and $150. Is that correct?
    Mr. Steinke. I think that is in the range of where we 
thought the diversion might start to occur, once we hit that 
amount, around 150, $160, something like that.
    Ms. Richardson. Okay. And also, there was discussion here 
about you are hearing us talk about interstate, which is what 
we do on a national level. What you have done is intrastate.
    What do you think about this discussion that we are having, 
that we applaud your efforts, but, you know, what is going to 
happen to the region as a whole? What are your thoughts?
    Mr. Steinke. Well, Congresswoman, I think, as you 
accurately portray it, I think we recognize the sense of 
urgency that this port complex had in needing to move forward 
with not only environmental initiatives, but also 
infrastructure initiatives.
    The Gerald Desmond Bridge is a good case in point. That 
bridge was built in 1965. It does not handle the amount of 
cargo that goes across it as efficiently as it should, and it 
is about a $900 million project.
    I think it would be presumptive for us to think that we 
were going to get $900 million from the Federal Government. So 
there needs to be other ways that we need to look at that 
through a public/private partnership, whether that is a local 
fee or whether that is 1B money, matching funds from the ports. 
But we recognize that, you know, if we just take a normal 
course of action, you know, we are going to have more serious 
deficiencies with that bridge than we currently have now.
    And I think that what we--you know, from my position, and 
only speaking as the executive director of the Port of Long 
Beach, where I am not certainly opposed to a national fee, you 
know, in the time that that dialogue takes place, I think we 
need to take some actions, initially, to see where we can come 
up with the matching fees we need for some of these very 
serious infrastructure projects that have national 
significance, not just local significance, not just 
significance for California, but 10 percent of the Nation's 
cargo goes across that bridge.
    Ms. Richardson. Okay. I have about 20 seconds, so let me 
wrap up with this, and Ms. Knatz, if you would like to comment 
on this point.
    Both of you talked about, ultimately, this price coming 
down to the consumer, and I work with my colleagues here, so I 
saw the hair raise and, you know, the collars raise.
    I understand that it is easier to do it in this way and it 
makes sense from your perspective. But what would you say to 
that consumer who--really, is it the consumer's responsibility 
to pay another 50 cents? Or what about the shippers and 
everybody else who are making money on these products?
    What is their responsibility to pay their fair share 
instead of adding it on to the consumer, and is that possible?
    Ms. Knatz. Well, I would say that every entity in this 
logistics chain has a role in this. I mean, in the whole Clean 
Air Action Plan, we have told the carriers, ``You have to clean 
up the ships,'' and we have told the railroads, ``You have to 
clean up the locomotives,'' and, you know, the trucks were 
something that we felt, because the industry was so diffuse, 
that the ports had to take that on themselves. There was a lot 
of discussion about charging the drayage companies, and a lot 
of the companies that we have now don't have any assets. They 
couldn't afford it.
    So the only way to really do it, and really be the fairest, 
was really to spread it among a larger consumer base, and I 
think the consumers nationally, maybe they don't recognize the 
fact that this region bears a burden for the entire country in 
terms of experiencing the health impact as a result of, you 
know, 45 percent of the goods coming through this area.
    So at least for that component, it was important to really 
spread it among a sort of wider base.
    Ms. Richardson. Thank you, Mr. Chairman, for the additional 
time, and again, I think this particular panel has brought 
forward the point that clearly we have made some local progress 
here, but as you are hearing from my colleagues, there is great 
concern as we extend it out.
    Mr. Cummings. Thank you very much. I just want to make it 
very clear. As I became more and more familiar with this issue, 
I think you all ought to be complimented for not just looking 
at a problem and saying, ah, you know, we will pass it on. But 
you tried to grapple with it and to address it, and I mean, 
this kind of cooperation I think has to be complimented, 
because we don't see enough of this.
    [Applause.]
    Mr. Cummings. And so now the question is how do we move 
from here.
    Mr. Filner.
    Mr. Filner. Thank you. I would agree with your last 
statement. You know, we, in San Diego, have long admired what 
you do here. And Dr. Knatz, you sort of said that you didn't 
think there would be much of a legal challenge.
    I assume you were talking about the Infrastructure Cargo 
Fee.
    Ms. Knatz. Right.
    Mr. Filner. And were you distinguishing that from the Clean 
Trucks Program? I heard there was a legal challenge filed 
already.
    Ms. Knatz. Yes.
    Mr. Filner. And what do you make of this? I mean, do you 
feel very confident about surmounting a legal challenge?
    Ms. Knatz. Yes. I was differentiating, I was talking about 
the Infrastructure Cargo Fee and we felt very comfortable, 
there is just not going to be a legal challenge. There has been 
a legal challenge filed on the Clean Trucks Program against 
both ports, and yes, we feel very confident about our program.
    Mr. Filner. Just for a layman, what is the general basis of 
that complaint and why do you think you will overcome it? The 
counsel will say don't answer this but----
    Ms. Knatz. Yes, right, exactly, and I probably am not going 
to do it justice. I would say from our perspective, we really 
have our proprietary interest on as ports in terms of the 
businesses that we operate, which gives us the opportunity to 
deal with certain things and set some conditions, and we 
believe that we have the right to do that, and the Trucking 
Association believes different, based on various case law.
    Mr. Filner. Good luck.
    Ms. Knatz. Thank you.
    Mr. Filner. I hope you prevail.
    You mentioned that you started with, you wanted to call it 
Infrastructure Cargo instead of a container fee because 
obviously there are other ways of bringing in cargo, but you 
haven't moved there. Give me some of those other ways of 
measuring, I mean, because of course we, in San Diego, don't 
have many containers coming in.
    Ms. Knatz. Right.
    Mr. Filner. By the way, if anybody says they are going to 
leave your port and come somewhere else, we can't take them 
anyway. I wish we could. Anyway, what other ways did you 
measure that? Tonnage of bulk?
    Ms. Knatz. Yes.
    Mr. Filner. That kind of thing? Is that what you are 
talking about?
    Ms. Knatz. Yes, exactly. It would be a very modest amount 
because that cargo is low value and couldn't handle it. But it 
is the principal of the thing, that the trucks that may handle 
the bulk cargos use some of the same infrastructure that the 
container trucks do.
    Mr. Filner. Right. I was wondering about that, because some 
of us don't have the containers that you all have here.
    You guys have differed in your approach, in your demands on 
the--I forget what you call them.
    Ms. Knatz. Concessionaires.
    Mr. Filner. Yes. IMC, or LMC?
    Mr. Steinke. Licensed Motor Carriers.
    Mr. Filner. Licensed Motor Carriers. I mean, is there a 
reason for that? I mean, why did you approach that differently?
    Mr. Steinke. Well, I think, Congressman, two philosophical 
positions by each respective board and elected official within 
each city. I think from the Port of Long Beach's standpoint, we 
wanted to keep things as close to the same as they are. These 
are landmark programs. They are pioneering programs. No other 
port complex has done that. We want to make sure that we try to 
ensure that cargo moves. But we need to make sure that we clean 
the air, and so we felt that the best way to accomplish 
continuing goods movement and cleaning the air as quickly as 
possible was to have the flexibility of either having a 
licensed motor carrier that has the employees, a licensed motor 
carrier that has independent owner-operators, or a licensed 
motor carrier who has a combination of both.
    Mr. Filner. And you took a different stance.
    Ms. Knatz. And I would say we took a longer-term view, you 
know, considering the fact that changing over this truck fleet 
is a $2 billion program. You know, we believe the program has 
to be sustainable, that five, seven years down the road, the 
trucks we buy today are no longer going to be the cleanest 
trucks out there.
    So we did not believe that giving grants to individual 
truck drivers was a way to build a sustainable trucking 
industry. Five to seven years from now, we would like to see 
licensed motor carriers that have the ability to buy the next 
generation of new trucks, without coming to us and trying to 
find $2 billion.
    Also using employees allows that truck to be used more than 
one shift. So that means less trucks to buy, less trucks on the 
road, less emissions. It creates some efficiencies in the 
system that we don't have today, where every driver has to own 
his own truck.
    Mr. Filner. Thank you. My time is up. Thank you, Mr. 
Chairman.
    Mr. Cummings. Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chairman.
    And Dr. Knatz, in your statement you were talking about 
investment in rail improvements. Would you expound on that.
    Ms. Knatz. Yes. About as far as what we need to do in the 
near term, near area of the port, we need about $600 million in 
rail infrastructure, just surrounding the port area. That is 
not including new... dock rail facilities inside the terminals, 
and that is also not including the Alameda Corridor East, 
which, you know, a lot of that is actually highway work because 
it is overpasses.
    So when I talked about rail projects, I am talking about 
that $600 million or so, that is near the ports, where an 
investment is needed.
    Ms. Napolitano. Thank you.
    And Mr. Chairman, you were mentioning, in your statement, 
about the ports moving collaboratively, to work together to 
address the issue of the growth of the port, the economic 
impact, etcetera. But I would like to thank EPA, because they 
came to the ports years ago and said, ``You will clean it up.'' 
Am I correct?
    Ms. Knatz. I would also say yes, and with AQMD too, also 
was a big driver.
    Ms. Napolitano. Correct. It wasn't totally ``We see the 
light.''
    Ms. Knatz. Oh, no, no, no.
    Ms. Napolitano. And I just want to make that for the 
general public, because we have been working on this issue for 
many, many years. And you heard from the mayor, saying that 
pollution from here goes through the inland empire and they get 
the brunt of what we send down.
    So it is something that we need to be sure that we 
understand, that all your efforts are great, and we do applaud 
you, but we have some way to go in moving forth on this.
    And I started back in the nineties, when I was in state 
assembly, trying to bring the ports together, to be able to 
have a view of the dredging, a view of the capacity, a view of 
the growth, and I was told I was crazy and that I, you know, 
ought to go somewhere and disappear. Along with Mr. Filner, it 
was like--just to make my point. And I can tell you, I have had 
some of my colleagues, and one of them, former Chair of Rules 
Committee, made a statement to me that I very much understand 
now, and that is that if we were to check every container that 
came in for the truth in statement, that every member of the 
United States, every person would have seven lawn chairs.
    So we are not charging for what is being imported in this 
country based on its value, just, rather, based on container. I 
think that has to change, because we are-iPods, other equipment 
is exceedingly expensive, we are not taking the fair share of 
what is being brought into this country, at the expense of 
people in our areas that are bearing the brunt, whether it is 
on the rail or the highways.
    And what I hear a lot is truck versus train. I don't hear 
you say anything that you are going to be working with the 
railroads, to try to get them to do the improvements for grade 
separations, or betterment on the grade crossings, and that is 
important. That is critical for some of us.
    That is our district. You talk about some 30 grade--I have 
got 54 from East LA to Pomona. So, you know, when you say you 
are going to try to keep that here, locally, I beg your pardon. 
Regionally, is we get all your traffic in our area, and I have 
been one of the strongest vocal opponents, on the Railroad 
Committee, to make sure that the railroads understand that we 
are going to start holding them accountable.
    Federal law limits of what they are capable of being forced 
to do. But I have got news. There are new sheriffs coming to 
town, and we need to understand how that is going to be looked 
at in the future, to being able to put the onus where it 
belongs, and getting that fair share back to the general 
public.
    And you are the entities, and I agree with Mr. Rohrabacher. 
I think we need to start taking a very close look at how you 
are doing some of these things. We never hear from you. We only 
sit on those Committees that look at the funding that comes 
into this area.
    Mr. Cummings. Thank you very much.
    Ms. Solis.
    Did you all have a response? I am sorry.
    Ms. Knatz. Well, I just wanted to clarify one thing_the fee 
that will start collection in January 09 is for the local 
projects. That is about the $3 billion worth of improvements.
    There was also a regional fee that we developed, the two 
ports, that in deference to Senator Lowenthal's legislation, we 
did not move forward with and which, you know, depending on 
what happens with that, we, you know, our Board made 
commitments to do that, and so that was always part of the 
plan, and that dealt with those projects of national 
significance that were not so much designated by us but by 
others in the region, like Alameda Corridor East and Colton 
Crossing, and things like that. So I just didn't want you to 
leave with the misunderstanding that maybe we were not looking 
at regional projects.
    Ms. Napolitano. And Mr. Chairman, may I point out that we 
talk about green trucks but we don't talk about green trains, 
and they have been developed, and I think maybe the ports ought 
to look at forcing the railroads to use green trains. Thank 
you.
    Mr. Cummings. Ms. Solis.
    Ms. Solis. Thank you. A lot has been said but just a quick 
question for both of you.
    Are both of you supportive of the Lowenthal legislation? 
The different ports?
    Mr. Steinke. Yes. Our Board has supported the Lowenthal 
legislation.
    Ms. Knatz. Yes. And that's true. Yes.
    Ms. Solis. Okay. I can understand part of your argument 
about not taking on the bigger aspect of covering of the 
regional areas, because hopefully we will see Mr. Lowenthal's 
legislation go forward, which I support, but I do want to say 
that something that we have to keep in mind is that the cost of 
health care for individuals that are impacted by the business 
of the ports isn't just San Pedro's problem, or Long Beach or 
LA. It is all of us.
    The taxpayers have to pay for much of those individuals 
that are in the industry, and some that are working as 
independent contractors, what have you, and people that live in 
the surrounding area, that can't afford health care coverage, 
and there tends to be a large disproportionate number of 
truckers, and individuals along the corridor of Long Beach and 
LA port, that live in very high poverty-stricken areas.
    So I wonder what mitigation we also need to look at. Not 
all of us are going to agree on this, but I think it is a real 
cost for the American public, and I would just ask you to look 
at bigger regional issues, and who bears that cost.
    I represent more of the inland area and the San Gabriel 
Valley, and East Los Angeles. We also have some major issues 
with the railroad industry, and I do agree with my colleague. 
We have to go clean. We have to force them. Just as you are 
forcing these fleets to go forward with cleaner diesel trucks, 
and what have you, or another type of fuel that is more 
productive, I would say stand up, and I think Members of 
Congress will stand with you to see that that happens.
    I have also a concern with the terminal operators, the fact 
that somehow you are not actually going after them to pay what 
I think is a responsible amount of funding that should be made 
available for your operations, for your change to clean energy, 
and for upgrading the workers and their skills, and what 
training they are going to need.
    And I want to know why, why, deliberately, that was done.
    Mr. Steinke. Well, I think with respect to the marine 
terminal operators, those operators, we have entered into a 
number of green leases. The green leases require that the 
marine terminal operators change out all of their yard 
equipment.
    Ms. Solis. Can you give me an update on exactly who those 
are. Which ones haven't and which ones are. Because I 
personally took a tour and met with one of your main operators, 
and was very impressed by one lead operator, and having talked 
to him learned that the other operators in the area who are 
foreign-owned, are not paying their fair share here.
    And I would ask what is going on to help push them in that 
direction, or force them to come forward?
    Mr. Steinke. Well, specifically to your question, 
Congresswoman, we have ITS International Transportation 
Service, which is a subsidiary of K-Line, a shipping line out 
of Japan, they have entered into a green lease. We have Matson, 
which is a U.S. line, that has entered into a green lease. 
Those all have specific provisions that require them to use low 
sulfur fuels, to plug into shoreside electric power, to change 
out all of their yard equipment, and use the best environmental 
practices as possible.
    Ms. Solis. Well, which ones have not signed those 
agreements?
    Mr. Steinke. One of the things we have is leverage with a 
lease, and as those leases come due, that is one of our 
opportunities to impose green lease language in these leases.
    Ms. Solis. And how many leases do you have left to get to 
that?
    Mr. Steinke. We have about four other container terminal 
leases that we will have to get to, in terms of moving forward 
and implementing green lease into those.
    Ms. Solis. And I think that is a very important aspect for 
us to also focus in on, because there is a wealth of profits 
being made, also again looking at what comes into our ports, 
how that is handled, and the fact that everyone here, I believe 
the stakeholders have to be represented, and they may not be at 
the table right now but I think that we have to somehow kind of 
move that along.
    That is what my interest is in this particular matter, 
health-related, worker safety and protection, and making sure 
that those that can afford to pay more, because they do reap 
some really great profits here, we know that, we don't want to 
harm that industry, but we know that there has to be more 
transparency, there has to be more accountability, and on the 
part of both cities, I do want to say I do commend you for 
moving forward on the truck program, and your effort to try to 
clean up those vessels that come in, that add also to the soot 
and contaminants in the air.
    We need to work together, and I hope that that is something 
that you all will take home with you, because I think that is 
something that has been missing from this paradigm. This is the 
first time I have actually come to a hearing, to deliberately 
hear how the impact of the ports is going to affect positively 
or negatively in the future, and how these programs that you 
are rolling out are going to impact the residents and 
constituents that I represent.
    So I applaud our leadership for having this, but this is 
one in a series of hearings that I think we will have to have 
throughout the Southern California Basin, that is affected by 
these great ports and by the railroad industry.
    Mr. Cummings. I can tell you something else, Ms. Solis. 
That this issue is so significant. I mean, I don't know if 
people really realize how big this is, and I can see my people 
back in Baltimore asking, you know, why aren't we doing this, 
or trying to do it.
    I am sure we will, I know this Committee will have other 
hearings, and I am sure you will have them in your region.
    I want to thank you both for being with us, and I just want 
to ask you one last question.
    If the lawsuit should be successful in striking down the 
concession programs, what impact would that have on the Clean 
Trucks Program?
    Mr. Steinke. Mr. Chairman, speaking for the Port of Long 
Beach, we still intend to move forward with the progressive 
ban, starting October 1, where 1988 and older vehicles will be 
banned from accessing port terminals, and we still intend to 
collect the $35 per TEU fee.
    As I understand the lawsuit, they are not asking for an 
injunction on either one of those two elements of the Clean 
Trucks Program.
    Mr. Cummings. I just wanted to get Ms. Knatz and then I 
will go to you, Mr. Rohrabacher.
    Ms. Knatz. Right. The same.
    Mr. Cummings. Thank you.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Let me get this right. If a older truck is 
cleaner and meets an emission standard, might be cleaner than, 
for example, if it is using a new type of fuel or has a 
different type of upgrade on its engine, that older truck, even 
though it is cleaner, will not be permitted in the ports?
    Mr. Steinke. Congressman, as I understand it, and I don't 
know if we have any technical people here, you can't clean up 
an older truck to even meet the 2007 standards, through 
retrofit devices or cleaner fuels or anything else. The way----
    Mr. Rohrabacher. That is not the question. The question is 
somebody does meet an emissions standard that is as clean as a 
new truck, they will not be permitted. An older truck that has 
a cleaner engine than a current engine will not be permitted to 
move forward and participate?
    Mr. Steinke. The way the program is designed, 1988 and 
older trucks will not be able to access terminals after October 
1.
    Mr. Rohrabacher. Mr. Chairman, I just have to say that, to 
me, is almost nonsensical, considering how many technologies--I 
am on the Science Committee. People come to me with fuel 
additives every day. People come to me with different devices 
and different ways of upgrading the efficiencies of engines. It 
seems like to me, that somebody wants to make a lot of money 
selling new trucks, and there are some other powerful forces at 
play at this, if you don't just go with a standard that has to 
be met, and everybody has to meet the standard. So thank you 
very much, Mr. Chairman.
    Mr. Cummings. Thank you. Thank you very much. And again, I 
want to thank both of you for your testimony. Thank you very 
much..
    We now call our final and our third panel. Mr. Charles Mack 
is the director of the Port Division of the International 
Brotherhood of Teamsters, and let me add, that we have in the 
audience UA 250, the Teamsters AFSCME District Council 36, and 
the International Longshoremen and Warehouse Union. We want to 
thank all of you for being with us.
    We also have on our panel Mr. David Petitt, who is a senior 
attorney with the Natural Resources Defense Council and Ms. 
Elizabeth Warren, who is the executive director of FuturePorts.
    Ms. Richardson. Mr. Chairman.
    Mr. Cummings. Ms. Richardson.
    Ms. Richardson. Mr. Chairman, first of all, I just want to 
let you know that outside, we actually have another room where 
folks are watching this on television. We had a standing room 
only, which is pretty exciting, and I just wanted to again make 
sure the public is aware, although we will not be able to take 
your questions as we are hearing testimony, please feel free to 
complete one of these forms, leave them outside if you are 
leaving a little bit earlier, and we will make sure that they 
are submitted to the Committee for appropriate review.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you. Thank you very much.
    Mr. Charles Mack.

     CHARLES MACK, DIRECTOR, PORT DIVISION, INTERNATIONAL 
   BROTHERHOOD OF TEAMSTERS; DAVID PETTIT, SENIOR ATTORNEY, 
   NATURAL RESOURCES DEFENSE COUNCIL; AND ELIZABETH WARREN, 
                EXECUTIVE DIRECTOR, FUTUREPORTS

    Mr. Mack. Thank you, Mr. Chairman, and Members of the 
Subcommittee, and Members. I welcome the opportunity to offer 
testimony on port development and the environment at the Ports 
of Los Angeles and Long Beach.
    My name is Chuck Mack. I am a Teamster vice president and 
also the head of the Port Division for the union.
    The Teamsters represent hundreds of thousands of 
transportation workers across the country. They depend upon the 
movement of freight through our maritime ports for their 
livelihood. Without a robust and vibrant port economy, our 
members who drive trucks, our members who work in rail, our 
members who work in the warehouse would be out of work.
    But in recent years, we have become acutely aware that the 
health of our members, their families, and the communities they 
live in are at risk because of the deadly diesel pollution 
spewing from dirty trucks, ships, cranes, and other equipment.
    Unless port operations, and particularly port trucking, and 
our whole global supply chain is made environmentally 
sustainable, our global economy will be at risk and 
transportation workers, especially port truck drivers, will 
suffer.
    What we have today is a system where the oldest trucks on 
the road end up at the ports. In fact the average port truck is 
nearly 15 years old, poorly maintained, and produces at least 
10 times the diesel pollution as a new, properly-maintained 
2007 diesel trucks.
    And the 2000 port trucks that were made before 1989 produce 
at least 60 times the pollution of a new truck. Just 10 percent 
of the port trucking fleet puts the equivalent of 120,000 new 
diesel trucks, spews pollution, on the road.
    No wonder data from the California Air Resources Board 
shows that pollution from port trucks kills two people each and 
every week. Failure to clean up the port trucks will cost the 
region nearly $6 billion in premature deaths, hospital 
admissions, respiratory illnesses, and lost school and work 
days over the next 10 years.
    Here is why. Port truck drivers are currently required to 
own their own truck in order to get hired to work in the 
industry by a trucking company. But the so-called trucking 
companies at the port currently shirk and skirt their 
responsibilities as legitimate employers and cheat the state 
out of millions of dollars in payroll taxes by hiring these 
owner-operators as independent contractors.
    Let's be clear. Port drivers are not small business owners. 
They are severely underpaid workers who must sign leases that 
usually force them to haul for only one company, with no 
ability to negotiate contracts, a fact that has led the 
attorney general to launch an industrywide investigation.
    Last week, California's attorney general filed complaints 
against two companies for illegally classifying their drivers 
as independent contractors, and denying them worker's 
compensation, unemployment insurance, and coverage of wage and 
hour, and health and safety laws that protect employees in the 
State of California and the country.
    This misclassification pins them with all the 
responsibility to buy and maintain the trucks. They receive no 
health care, no Social Security. They are paid only by the load 
not the trip. The traffic and the time is on them. They bring 
home, on average, only $29,000 a year.
    And it is far lower when the diesel price climbs over $5 a 
gallon as it is today.
    In fact many drivers can't survive on what they make at the 
port today. Over the weekend, Mario Aguilar, a long time so-
called independent owner-operator, here at the San Pedro ports, 
brought us a copy of his last pay stub. I have it here to show 
you. His take-home pay was 1.76. That is not $176. That is one 
dollar and 76 cents out of a gross check of $656.59.
    His take-home pay was eaten up because 70 percent of the 
check went to fuel, insurance ate up the rest, and it is a good 
thing that he has got his truck paid off, because if he had 
truck payments, he would literally be paying to work instead of 
being paid to work.
    It shouldn't come as a surprise that labor unrest is 
pervasive factor in the port economy throughout North America 
and particularly here, in Southern California. In the nearly 
three decades since deregulation, drivers in U.S. ports have 
struck, staged convoys, and shut down the ports to protest 
their conditions related to the legal fiction that they are 
independent businesses and not workers.
    This frequent unrest adds additional cost to business, 
workers in the community costing port stakeholders millions of 
dollars. Los Angeles and Long Beach were the site of two major 
strikes that lasted several months in 1988 and 1995. It 
involved thousands of misclassified drivers, who halted all 
economic activity.
    With diesel costs soaring, more recently hundreds of 
drivers parked their trucks in protest in Oakland. There have 
also been several wildcat strikes involving hundreds of drivers 
over the past few months, here, in the San Pedro ports.
    The Los Angeles Clean Trucks Program is the only 
comprehensive, sustainable program, that economists, 
environmentalists agree, will clean the air in the long term 
and better equip the industry for today's rapidly-changing 
global economy.
    Fundamentally, what the Port of LA is trying to achieve 
with their Clean Trucks Program is to minimize the mount of 
equipment and hardware by maximizing the use of labor. Only a 
company-based system, that enables the port to hold trucking 
companies accountable for their operations, is capable of 
achieving this fundamental objective.
    If companies are responsible for the cost of owning and 
maintaining the trucks operating under their authority, they 
have economic incentives to maximize the hours that each truck 
is in service.
    An owner-operator system prevents these efficiencies from 
occurring because the owner of a truck is limited in the number 
of hours he or she can work.
    An owner-operator system makes drivers akin to 
sharecroppers on wheels. Minimizing the number of trucks 
serving the port by maximizing their hours of service will 
reduce the number of trucks, reduce congestion, and wait times, 
and increase operational efficiencies through more load 
matching.
    Finally, the ports need a program so they can achieve a 
greater level of security at the port. The transportation 
worker identification credential has taken years to get off the 
ground, and it is unclear when it will be actually operational. 
In the meantime, the ports need to be able to identify who the 
drivers are in case there is a problem.
    The Clean Trucks Program will enable them to register 
drivers and require companies to be held responsible for their 
workforce.
    While the San Pedro ports are the first ports in the United 
States to address port truck pollution, they are not the first 
in North America to enact a licensed program to stabilize the 
industry. In 1999, the Vancouver Port Authority, Vancouver, 
Canada, enacted a truck licensing program that restricts access 
to trucking companies that have obtained a license from the 
port--to only trucking companies that have obtained a license 
from the port.
    The Vancouver Port Authority credits its current workforce 
stability to a mandatory licensing system for trucking 
companies doing business at the ports that hire employees. The 
truck industry in Canada has accepted this business model 
without litigation. Further, the port is now phasing in truck 
standards to clean up the fleet.
    In the face of the unreasonable efforts by the American 
Trucking Association to block the enactment of the Ports Clean 
Trucks Program, the Teamsters Union urges the Committee to 
provide whatever support it can to ensure the successful 
implementation of the Los Angeles Clean Trucks Program for the 
health of our communities, the workers at the ports, and for 
the future health of our economy.
    Thank you, Mr. Chairman, and I have this pay stub in case 
you would care to see it.
    Mr. Cummings. I would love to see that. Please.
    Mr. Pettit.
    Mr. Petitt. Thank you. Good afternoon, Mr. Chairman, and 
Members of the Subcommittee. Thank you for the chance to share 
my views on port development and the environment in Southern 
California.
    My name is David Pettit. I am a senior attorney for the 
Natural Resources Defense Council and I am director of NRDC's 
Southern California Air Program.
    I have to say as a lawyer, when I face a panel of seven, 
they are usually wearing robes, and I seldom have a chance to 
get a sentence out.
    Mr. Cummings. Is your mike on?
    Mr. Petitt. It is on. I seldom get a chance to get a 
sentence out before I get questions.
    So what I would like to do is respond to some of the 
questions and remarks that I have heard from the panel this 
morning.
    Starting with Congresswoman Solis, you asked about the EJ 
communities, and what is the effect on those communities of 
what is happening in the ports.
    I have a graphic here that I would like to show you.
    Courtesy of Google Earth, we have a graphic that shows all 
of the so-called sensitive receptors within 5 miles of a huge 
proposed project that the Port of Los Angeles calls the China 
Shipping Project. And you can see that they are color-coded, so 
we tried to show all of the schools and medical facilities, 
nursing homes and the like, and as you can see there are a lot 
of them. As you know, these communities that are near our ports 
are largely working class communities of color. These are 
NRDC's clients. These are our clients who we attempt to 
represent.
    In the law suit that the American Trucking Association has 
filed, we have moved to intervene with a couple of our 
environmental partners, in order to defend and represent the 
health interests of these people as well as try to defend both 
ports clean trucking plants.
    Ms. Richardson. Mr. Chairman, I would like to ask that this 
be made a part of the record.
    Mr. Cummings. So ordered.
    Mr. Petitt. Thank you. And in the written testimony I have 
submitted, there is a small version of the same chart.
    Congressman Rohrabacher, you asked a very good question. 
But why is it that an older truck that can meet these new 
standards, why do we kick that truck out? And there is a 
legalistic answer to that, and that is, under the Clean Air 
Act, when local jurisdictions start setting emission limits 
they get in trouble.
    NRDC recently lost a law suit that I participated in, 
having to do with the ability of the State of California to do 
just that, to set emission standards. That is how the court 
viewed it, anyhow, for marine fuel in auxiliary engines, and 
the 9th Circuit said no, you can't do that because it is 
preempted by the Clean Air Act. You have to go ask EPA first 
and maybe they will let you and maybe they won't.
    So for the ports here to say, well, any truck that meets 
this limit can come in, in my view, that is subject to 
litigation. As I said, our recent experience on that is not 
good.
    If you just say okay, a truck that is earlier than X year, 
that legally is a use restriction, not an emissions limit, it 
may seem like a crazy distinction but it is one that works. So 
the ports are on firm legal ground doing that and would be on 
shaky ground, at least in my view, if they said okay, if you 
meet a certain emissions limit, then you are okay. I should 
say, having said that, though, when the first part of the clean 
trucks ban goes into effect this October, 50 percent of all the 
truck-related diesel pollution will go away overnight. 
Overnight.
    So the people who live in the communities that you saw on 
that big charge, they will breathe better overnight, when that 
first ban goes into effect, and that is because the oldest 
trucks have a much higher percentage of the total truck 
pollution than you would think if you just did some sort of 
linear analysis.
    You get a similar result with the clean marine fuel 
programs that Dr. Knatz and Mr. Steinke were talking about. It 
is voluntary now but when the big ships, when they tie up at 
dock, mostly they run their auxiliary engines 24/7.
    So it takes like three days to load or unload a ship. You 
are talking about the pollution equivalent of a million cars, a 
million cars, and when you go to the cleaner sulfur fuel, 80 
percent of that goes away overnight, and that is a result that, 
again, the people in those communities near the ports are going 
to see literally overnight, when those improvements go into 
effect.
    With respect to the clean trucks plan--oh, the other point 
I wanted to make, Congress Rohrabacher, is in terms of 
technology. It is NRDC's view that we try to sponsor a result, 
not a technology. I don't care what it takes to get clean air 
in this area. If I could stand on my head and that would clean 
up the air, that will be fine with me. If it is maglev, if it 
is, you know, electric guideways, if it is electric trucks, it 
doesn't matter to me, it doesn't matter to us what it is as 
long as this problem gets fixed.
    The Port of LA has recently rolled out an electric drayage 
truck which has a lot of promise, and I am hoping that we are 
going to see at least some of those on the road, literally, 
within the next year or so.
    Chairman Cummings, you had remarks about a regional 
approach. I completely agree with that. The pollution doesn't 
respect city or county boundaries. It goes wherever it goes. 
Much of it starts here at our ports, it flows into the inland 
empire. If you look at the studies that our local air board has 
done, AQMD, they have maps that shows where the pollution is 
worse, where the cancer risk is worse in our area.
    There is a huge cluster right at the ports, and then it 
goes right up the goods movement routes. If you look at the 
710, which I drove on getting here, and some of you may have 
driven on, that is the worst of any of the throughways that the 
trucks or trains go on, in terms of the cancer risk for the 
people who live near it.
    And that kind of risk is exactly what the Clean Trucks 
Program is designed to fix. And let me just conclude by saying 
that in my view, you can't fix that, the Clean Trucks Program, 
without the container fee, and the reason for that is the new 
trucks are really expensive. They are about 150- to $175,000 
each for a 2007 EPA-compliant truck, and as Mr. Mack has said, 
given the economics of the poor truckers right now, they can't 
afford that.
    If you have a gentleman who is making $30,000 a year, on 
average, and that is before the recent spike in diesel fuel, 
that person doesn't have $150,000 for a new truck. That person 
is not going to be able to get financing from the bank to go 
out and buy one of those new trucks.
    And so if we talk about a national standard for having new 
trucks, we need to say, okay, nationally, no one's driving pre-
1989 anymore, that is great, except then I think we have to 
confront squarely the issue of how are we going to pay for the 
new trucks to replace the lost cargo volume from those old 
trucks?
    And the Port of LA and the Port of Long Beach have come up 
with a way to do that, with container fees, and NRDC fully 
supports that. Thank you very much.
    Mr. Cummings. Thank you very much.
    Ms. Warren.
    Ms. Warren. Good afternoon, Mr. Chairman and Members of the 
Subcommittee. My name is Elizabeth Warren and I am the 
executive director of FuturePorts.
    Thank you for the opportunity to address the Subcommittee 
this afternoon.
    We have nearly 60 member communities and partnering 
organizations, and we have at least two things in common. One 
is a vested interest in the economic performance of our ports 
of LA and Long Beach. The other is that we all believe in the 
need for clean air. We all live here and we are all part of the 
community.
    We believe that by growing our ports, we can advance 
economic performance while concurrently improving our 
environment by cleaning the air. This will not be easy nor 
inexpensive.
    How we achieve this and how we pay for it in an equitable 
and economically-sustainable manner is where the discussion and 
the dialogue needs to occur.
    We fervently believe that doing nothing is not an option, 
and to clean our ports, we must simultaneously and continuously 
grow, while growing green.
    Recently, the ports released their 2006 emissions 
inventories, and although there were increases in emissions 
over the 2005 levels, emissions on the per TEU basis were down. 
The benefits of many of the adopted programs, which were not in 
existence in 2006, are now being realized. Increased use of 
rail, which is two to three times more efficient than trucks 
has been a significant factor in this reduction.
    I have attached in my written testimony a factsheet from 
the California Resources Board summarizing many initiatives. 
Some of those are voluntary. There are also voluntary and 
incentive-based programs like the PierPASS Offpeak Program and 
the voluntary replacement of cargo handling equipment with 
newer cleaner equipment, installation of retrofit devices, and 
use of cleaner fuels.
    Other voluntary action includes vessel speed reduction 
programs and use of shore power.
    The success of these voluntary programs to cut pollution is 
highly encouraging. When the ports and business work together 
on air pollution problems from specific sources, we see 
dramatic results.
    With respect to the trucks, we have urged the ports and 
elected officials to focus on implementing a truck plan that 
has considered the legal implications of the port actions to 
mandate certain restrictions on the trucking industry. Business 
cannot function with the level of uncertainty that is currently 
occurring.
    We believe our first priority is to implement a sustainable 
air quality improvement program, with the highest emphasis on 
improvements that can be implemented in a timely manner, such 
as the truck replacement program.
    Regarding container fees, we are aware of the many fees 
that are currently in place and being proposed at the local, 
state and federal level. We have many concerns about how these 
fees are being proposed and implemented, the potential 
unintended consequences of these fees. I don't mean to say that 
industry opposes fees.
    Some fees, like the PierPASS in Alameda Corridor provide 
benefits. But user fees should be differentiated from the 
legislated fees. If fees are levied, they should be applied to 
specific projects that are identified, the account must be 
protected for use for the specific project for which it was 
intended, and there should be a sunset on the fee once the 
project is complete.
    Industry needs to see a return on that fees investment. 
Projects should be prioritized as those that will increase 
efficiencies while reducing emissions, therefore creating a 
win-win situation for the ports, the businesses, and the 
community.
    We are also concerned that not enough analysis has been 
given to the overall number of fees, and total amount being 
levied against shippers. A summary of the various adopted and 
proposed fees is attached.
    There is a threshold that will drive business away, 
creating unintended consequences of inefficiencies, emission 
increases, loss of jobs, and economic harm.
    We used to think that cargo volume at our ports could never 
be diverted in the numbers that it is today.
    Today, we have significant declines and our concern is that 
once the cargo is gone, it will never return. It is just like 
the water that it travels on. It will seek and find the path of 
least resistance.
    Billions of dollars of investment in new green terminals 
have gone to Houston, Jacksonville, Canada, Savannah, and all 
of this is because of the uncertainty facing Southern 
California. Those billions of dollars could have been invested 
here, creating state-of-the-art terminals that operate more 
efficiently, provide thousands of good jobs, and pump up the 
regional and local economy.
    We are no longer any shipper's first or only choice. We are 
one of many choices, and more often now we are coming into the 
last choice because of uncertainty and costs.
    We believe that quality of life begins with a job. 
Community leader, Father Boyle, from HomeBoy Industries, needs 
to be quoted. ``Nothing stops a bullet like a job.'' We have 
many construction projects waiting to be approved that would 
provide the boost to the economy that we need, and will also 
clean the air. Projects that achieve environmental benefits, 
increase port capacity and generate jobs must proceed as 
quickly as possible, and not be overburdened by uncertainty and 
expense.
    So thank you for the opportunity to address the 
Subcommittee today. We look forward to continuing our dialogue 
with you and look forward to any questions.
    Mr. Cummings. I want to thank you all for your testimony. I 
was very moved by some of the things that were said about the 
health of people. I think so often what happens is that we are 
so busy trying to make business run and do well, that the 
health of people is sort of put to the side. I have seen a lot 
of that in my city. As a young boy I worked at Bethlehem Steel 
in the summers, and a lot of the people I worked with, older 
men, inhaled all kinds of fumes and died early, and went 
through a lot of pain.
    And I think that, you know, as I listened to you, Mr. Mack 
and Mr. Pettit, I was just thinking that we do have to balance 
the concerns that you rightfully bring up, Ms. Warren, with the 
health and safety, and it is good to hear our union folks 
talking about that, because I think it is so very, very 
important. I often say we have one life to live, this is no 
dress rehearsal, and this is the life, and there are too many 
people whose lives are ending poorly.
    So I am going to go straight to Ms. Richardson and then we 
will go to Mr. Rohrabacher.
    Ms. Richardson. Thank you, Mr. Chairman.
    Interestingly, a report that was made to the Los Angeles 
Board of Harbor Commissioners on March 6, 2008, the Boston 
Consulting group suggested that if, as happens, the Port of Los 
Angeles and Long Beach adopt different clean truck programs, 
there is a risk that a volume of containers and supply of 
truckers could divert from Los Angeles to Long Beach.
    Ms. Warner, could you share your thoughts, if you think 
that that in fact would happen. The question is do you think 
that the traffic would divert completely to Los Angeles instead 
of Long Beach, given the difference of the two programs?
    Ms. Warren. We haven't fully reviewed all of the 
implications of the truck plans as far as the diversion from 
one port to another, although I think that it would be fair to 
say that if a trucking company can only operate in one port or 
the other, there would be increased levels of complications for 
them to do their work. They would not be able to work in both 
ports, if there are two different plans, unless they are, I 
guess, the concession. So that is not really an area that our 
board of directors has really focused on.
    We are really more concerned with getting a plan that's 
legally defensible, that can move forward, and not cause those 
diversions, not only to other port but other parts of the 
country, by causing uncertainty.
    Ms. Richardson. If I understand your testimony correctly, 
you said that the primary concern is the uncertainty in cost, 
and if in fact there was a program that had specific projects, 
that the funding was protected, that there was a sunset clause 
in it and that the projects would be prioritized, that there 
would be support in the industry for such a program. Did I 
summarize your thoughts correctly?
    Ms. Warren. Yes. They would like to have input on that, 
they would like to be brought to the table, but those are all 
areas that they had big concerns with when it comes to the 
different fees.
    Ms. Richardson. And Ms. Warren, could you, for the record, 
state, is your membership of your organization more on the 
retail side, the shipping side? Would you describe your 
membership.
    Ms. Warren. We have a very unique and diverse membership. 
We really represent the entire supply chain, so we don't have 
more than one group of another. We have transportation 
providers. We have marine terminal operators. We have labor. We 
have consultants, construction companies. Really, any company, 
any type of business that operates or depends on the ports for 
their business, is a candidate for membership in FuturePorts, 
if they have a concern at the ports.
    Ms. Richardson. So then some of the discussion that was had 
before your testimony, there was much discussion about whether 
the consumer should pay for this, the shippers, the cargo 
owner, etcetera. What are your thoughts, since you have members 
that are in all those areas? What would you anticipate the 
reaction would be, if it was more spread across the board, 
particularly in a national scenario?
    Ms. Warren. We have, as I mentioned, we have a very broad, 
diverse--and it is a very complicated issue, because what 
benefits one may not be as beneficial to another.
    So I think that because of the complexity of that issue, we 
are not going to be able to solve that in five minutes today, 
but I think that there would be a way for all of those members 
to come together and work on that issue, and to be able to 
solve some of these concerns.
    We have done it, we have proof that we have done it on 
other issues, so we have confidence that if we come to the 
table, we have a chance to discuss this, we can solve some of 
those issues.
    Ms. Richardson. Well, I look forward to those 
conversations.
    Mr. Pettit, much of the discussion has focused on the 
shortfall of the Federal Highway Tax Fund and the need to 
supplement the federal gas tax. However, no doubt, clearly, the 
air quality is a driving force in this whole discussion.
    How many large ports, would you say nationwide, would you 
estimate, and what percentage have this type of serious air 
quality situation that would require a more nationwide 
consideration?
    Mr. Petitt. Well, Congresswoman Richardson, all of the 
major ports have pollution problems similar to ours, here, in 
Los Angeles, where you have diesel equipment, where you have 
diesel-powered ships and trucks you are going to have the same 
emission issues. Here, in LA, as you probably know, we have the 
dirtiest air in the country.
    So what is exacerbated here with the total that people are 
breathing is worse than anywhere else in the country. I can't 
say--I mean, I have been to Baltimore, the weather was 
beautiful when I was there. I don't know, you know, what the 
air quality is like, in general. But here, we have just an 
awful problem, and we have the worst problem in the United 
States.
    But you shouldn't think that the problem of the actual 
emissions from the trucks and trains--from the trucks and ships 
is different than any other port, because it is not.
    Ms. Richardson. And Mr. Chairman, could I just do one last 
question, and Mr. Mack, if you could be very brief.
    In your opinion, do you feel that a port truck driver could 
in fact afford to replace their truck in the scenario of the 
Long Beach program?
    Mr. Mack. I don't think so. I think it would be very, very 
difficult to do that, given the current economic circumstances, 
and just having to come up with 20-, 30-, 40-, 50-, $75,000, 
whatever it would be, I think is going to be very, very tough 
to do. And if it is laid on the drivers, we are going to run 
into the same problems that we have today. As Ms. Knatz said, 
Dr. Knatz said, a few years down the road, of having to replace 
the equipment again, where drivers don't have the economic 
wherewithal, where they don't have the capital, one of two 
things has to happen.
    They have got to find a way to get it, or taxpayers again 
are going to be called upon to basically subsidize the 
industry.
    Ms. Richardson. Mr. Chairman, I would like to revisit that 
answer compared to, I remember reading something about a lease 
program and the whole thing with the vehicle. So we will 
revisit that and I will make sure it gets back into the record. 
Thank you, sir. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Thank 
you for coming here today and holding this hearing, and again, 
thanks to Laura for being the prime, I would say inspiration, 
and I think this has been a great discussion. I think this is 
just the type of public discussion that we have needed on this 
issue.
    We have raised a lot of issues that I think will continue 
to be discussed because of this hearing. So thank you very 
much. Let me go on record, first, before I get to my questions, 
as saying that I do not, in any way, begrudge the Teamsters 
Union or Longshoremen Union, or any other union for trying to 
get their hands on more money for their members.
    There is a lot of money being made in this business of 
transporting goods from overseas, letting these manufacturers 
close their plants in the United States, manufacture overseas. 
There is a lot of money being made in that whole scenario, 
bringing it into our market, and a lot of the money being made 
is made on the shipping side of that, and if Teamsters can make 
more money, if, individually, Americans, Teamsters, or 
Longshoremen, I don't begrudge them that.
    With that said, it is not the purpose of regulation by our 
Government to basically deliver goods in any other way except 
to make it the most efficient, to have regulations so that we 
have the most efficient delivery of goods, goods that are 
safely delivered, goods that are basically consistent with the 
public health. That is what our concern is.
    Now how you organize it over there, and quite frankly, one 
of our witnesses stated that the purpose, that they are going 
to be building, I think it was Ms. Knatz, a more efficient 
trucking industry.
    Well, our goal here is not to increase membership in the 
Teamsters union and it is not even here to build a better 
trucking industry. The fact is taking goods from our ports, by 
truck, to the inland empire, where they are picked up by rail, 
is ancient history. It is outdated. It is not good for the 
public health, and it is not cost-effective in terms of use of 
scarce resources like oil and gas.
    This is something that we have to try to change, and evolve 
out of that dependency. That is yesterday. We need to build a 
better tomorrow, not based on what is good for the Teamsters, 
not what is good for the trucking industry, but what is good 
for the people of the United States at large, and especially 
here, in Southern California. That is what we are trying to do.
    In terms of our actual, the first step here, we heard about 
today this Clean Trucks Program, I would submit to you that 
this idea that--well, the EPA, there is just some regulation 
there that gets in the way of this, thus just setting a very 
strict emission standard, and enforcing that standard is not 
the answer, we have to come and give the specific solutions 
that happen to benefit people like the Teamsters Union.
    The fact is that that didn't just happen. I mean, this is 
part of the whole ball of wax of how these decisions are made, 
and, in the end, we didn't have a strict emissions standard, 
and certain people benefited, people who sell trucks and the 
Teamsters Union, and people who want to keep us dependent on 
trucks rather than trying to create a new system of 
transportation for containers, that will be clean and 
efficient, and eliminate these problems that we have been 
talking about today.
    Now, again, I am not begrudging the Teamsters Union for 
that at all. I think that union people should get not only 
their cut of the pie, but as we move forward, there are a lot 
of other people getting a lot of profits. Let's make sure our 
working people get those profits as well.
    But not in maintaining a system that is out of date, and so 
out of date it is hurting the health of our people.
    By the way, I would just say this. That, as I say, shipping 
by truck is bad for the economy, it is wasteful for energy. 
Shipping by truck, as we have heard today, is bad or the public 
health, and shipping by truck causes congestion which 
exacerbates all the other problems.
    Mr. Pettit, this would be a example of the ships that you 
are lauding, that we set these standards for those ships, but 
we would say, no, you have to have a new ship. That is this new 
truck program, or Clean Trucks Program. It is not a Clean 
Trucks Program. This is a new truck program, just like it 
wouldn't be a clean ship into the port program. It would be a 
new ship program, if that is what we demanded, and I do not 
accept the explanation, that there is some unsolvable EPA 
malaise up there, bureaucratic malaise. That was never even 
challenged from what I know.
    Now Mr. Pettit, were there challenges to those impediments 
made before we decided to go with this very expensive program 
for new trucks?
    Mr. Petitt. Well, I can say we lost--NRDC participated in 
losing a law suit on----
    Mr. Rohrabacher. No; no. By this industry. When we moved 
forward, did the ports attempt to go to the EPA and challenge 
those EPA regulations and challenge them in court if necessary?
    Mr. Petitt. No.
    Mr. Rohrabacher. No.
    Mr. Petitt. I think they did not.
    Mr. Rohrabacher. That is the answer. Thank you.
    And I only have a couple seconds, in fact I am out of time 
now. I would like to again thank you, Mr. Chairman, and thank 
you to all those who participated today.
    We have the technological capability to solve this problem. 
If we aren't hampered by very powerful interest groups, both 
union and management interest groups, we can make a better 
tomorrow for Southern California. But we have got to make sure 
we are honest with ourselves, and we use the new technology and 
set high standards to protect our people, and let the 
technology and the innovators solve it.
    Thank you very much, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair, and I certainly also 
add my thanks to you for taking on this issue to the local 
area.
    Mr. Pettit, back in the last Olympics that were held in 
Southern California, trucking went to nighttime delivery. 
Remember that?
    Mr. Petitt. Yes. I do.
    Ms. Napolitano. And a lot of pollution was cleared up. 
Actually, it was meant to clear transportation for tourism. And 
since I have been in Southern California back in the late 
fifties, there has been a great change in the pollution of 
California, and that is why we have additional taxes on our 
fuel. And that has helped.
    Yet we continue, because of our growth, or because we have 
been lax in certain areas, continue to have more and more 
pollution. Is it enforcement? Is it political will?
    One of my cities, not too long ago, was named the most 
polluted city in California. It had a lot of trucking companies 
there, and we started a program--not started, but we were able 
to get a program to be able to replace the engines.
    What is it that can happen, that we need to--is it 
informing the general public? Putting pressure on state, 
federal agencies? Getting some of these persons who are a part 
of the problem, to start helping clear the problem, in other 
words, to be able to have the health care costs become a part 
of the burden of doing business, a part of cost of doing 
business. Would you answer.
    Mr. Petitt. Yes. Thank you. I think the root of the problem 
that you are referring to is in growth, both population growth 
and in trade growth. Vehicle miles traveled or VMT, as it is 
often called, has been rising at a faster rate than the rise in 
population all throughout the country. That means there are 
more of us and we are driving even more than we used to.
    I think a simple answer to that, I mean simple 
technologically, but it has been difficult to get through 
Congress, is to raise the CAFE standards even more than they 
were recently raised, and to find ways, perhaps in the new 
transportation bill, to incentivize people to get out of their 
cars and to use public transit.
    And in terms of the growth in cargo, I mean we all--it has 
just exploded, here, on the West Coast in the last 10 years, 
and, you know, probably all of us are wearing, right now, 
something that was made in China, maybe with cotton that's 
raised in Texas, that is shipped over there, and then 
manufactured and shipped back here, cheaper than it could be 
manufactured and sent, you know, just down the street.
    And just the volume of that, and the fact that it is 
transported every step of the way by outdated diesel 
technology, that is what, in connection, even more so I think 
than the increase in passenger travel, is making cities in 
Southern California the most polluted in the country.
    And I agree with Congressman Rohrabacher, that we need 
technological solutions to that, and there are a lot of things 
that both exist right now and are on the drawing board, that 
can help fix that, and I just think we need the political and 
moral will to do it, and I am hoping that you folks can help 
with that.
    Ms. Napolitano. Well, also, if you will remember, it was 
found that truck driving at nighttime reduced a lot of the 
pollution simply because of the effect of the carcinogens, the 
sun hitting them and converting them quicker than at nighttime. 
They weren't as heavy.
    Mr. Petitt. Reduced the ozone, that is right, because ozone 
needs sunlight in order to form.
    Ms. Napolitano. Correct.
    Ms. Warren, in your organization, is the taxpayer, consumer 
represented?
    Ms. Warren. The taxpayer and consumer would be represented 
by us as members of the community, and members of--I mean, I am 
a taxpayer and I am a consumer.
    Ms. Napolitano. No. I am talking about rank and file, 
individuals who have--it is Joe Blow from the city has no 
position anywhere, other than he has concerns about his family 
or his community.
    Ms. Warren. He would be more than welcome to contact me----
    Ms. Napolitano. The answer is no, you do not have any.
    Ms. Warren. We are a membership-based organization, so 
there are membership dues. We do have a level for individuals 
to join. We are a relatively new organization, so no one has 
joined at that level yet, but we would hope that someone would 
be interested in doing that.
    Ms. Napolitano. But do you advertise it as such?
    Ms. Warren. We are--it is posted on our Web site, that 
there is an individual membership, on our membership dues on 
our Web site.
    Ms. Napolitano. Because if you are going to take it, the 
overall picture, you also have to list the taxpayer, and I'm 
not talking about those that pay taxes that are business people 
that belong to the organization. I am talking about those that 
are nowhere included, whether it is political, or business or 
labor, or anything other than a concerned citizen, in other 
words.
    Ms. Warren. We started off as an organization that was 
started by business people. They had concerns about their 
business, and the future of their business, and that is how we 
were started. Again, we are relatively new, we are just a 
couple of years old, so hopefully, as we grow, as our budget 
increases for advertising and for more outreach, we would hope 
to include that.
    Ms. Napolitano. But is that local businesses in California? 
Is that foreign companies?
    Ms. Warren. They are--I am sure that some of them operate 
overseas, but most of them are based here in California, or 
they do operate throughout the country.
    Ms. Napolitano. Okay. There are some claims that not one 
port-approved CEQA, environmental impact report was legal. 
Anybody have an answer to that. I mean, you know, things do get 
out of hand sometimes; but is there truth to that?
    Mr. Petitt. Well, I think that is too broad a statement. I 
think my friend, Mr. Marquez, may have said that, and I don't 
totally agree with that, and, you know, at the end of the day, 
what is legal under CEQA is up to the judge. But we have--I 
mean, NRDC has challenged a number of projects under CEQA, and 
the one that went all the way to trial, we won, and the judge, 
the Court of Appeal did say that this EIR was illegal in the 
First China Shipping Project, and that changed a whole lot of 
things at the ports.
    The ports are now undergoing an expansion boom. There is a 
lot of EIRs under CEQA coming down the road, and we are looking 
at all of them.
    Ms. Napolitano. Is there enough oversight over some of 
these to be able to do an effective job?
    Mr. Petitt. No. In my opinion, there is not.
    Ms. Napolitano. Explain.
    Mr. Petitt. Well, the Southern California air team at NRDC 
is three lawyers, myself and two of my colleagues, and there is 
really only so much that we can do, and in terms of the legal 
oversight, if you will, from community groups, of the EIRs at 
our ports--this may sound like bragging, but I think the fact 
is NRDC is pretty much the only game in town. And so if we are 
not doing it, it is not getting done. It would be great if we 
had more ability, and we could look in more depth--some of 
these EIRs now are 6000 pages, and, you know, you have a 
limited time to comment. There is only so much that a person 
could do.
    Ms. Napolitano. Thank you.
    Mr. Mack, any comments?
    Mr. Mack. Well, I had a couple of comments here, mainly in 
response to Congressman Rohrabacher. We appreciate that 
opportunity to negotiate contracts and do the best that we can 
for our members, and generally, overall, we have been pretty 
successful.
    But what we are talking about here, for drivers, is not a 
program--and it has been misconstrued, and sometimes 
intentionally--not a program that is going to organize the port 
truck drivers for the Teamsters.
    What we are talking about is putting a model in place that 
gives the drivers the right to decide whether they want to 
belong to a union or not. And then if they decide they want to 
belong, they have the right, then, to collectively bargain.
    Under the Sherman Antitrust Act--I am not an attorney--one 
caveat--but under the Sherman Antitrust Act, two drivers, two 
port drivers, immigrant truck drivers, get together and talk 
about how they are being victimized and taken advantage of, and 
talk about anything that would increase or improve the rates, 
and then propose a stoppage to get more money, they would be in 
violation of the Sherman Antitrust Act.
    And the only thing that changes that around is to change 
the model, and to allow those drivers, like almost every other 
driver in this country, to belong to a union.
    Quite frankly, what we have in place with port trucking is 
a scam. It is nothing more than a scam. It is an idea that was 
conceived after truck deregulation to insulate the industry 
drivers from being organized, making them independent 
contractors, because then they had no power, they had no 
ability to bargain collectively, and it allowed the giant 
retailers like Walmart, Target, Lowe's, Home Depot and the rest 
of them, to continue to depress the transportation cost so they 
could maximize their profits.
    When we talk about what we are doing here, is not to 
promote trucking alone. Hey, we will take members, obviously. 
But we are in league here with the environmental community and 
the ports. We have come to the conclusion that if we don't step 
up, as a labor organization, to change the environment, we are 
not going to be able to make the necessary changes that need to 
be made in our communities, and there are communities where our 
members live, there are communities where they work every day 
with those trucks, and they are subject to that kind of 
pollution.
    So we are very interested, and very committed to this 
environmental approach as we go forward, cleaning up the air, 
making it better than it is right now.
    Now for those, and the suggestion that trucks may be 
outdated, let me say this. The Brotherhood of Locomotive 
Engineers and the Brotherhood of Maintenance of Way Employees 
recently affiliated with the Teamsters Union.
    So now we have not only the trucks but we have got the rail 
too.
    Ms. Napolitano. Thank you. And Mr. Chairman, just not too 
long ago, less than 10 years ago, independent truck drivers 
were being scammed by the insurance industry here in the ports, 
because I remember several rallies and trying to get them--the 
insurance would issue kind of a blank number, and if they were 
stopped there was none existent. So it was a lot of other kind 
of fraud going on at the time, and so I have great concerns.
    We want to be sure that they have adequate pay, so that 
they can not have a $1.76 left out of their pay. Thank you very 
much again, and thank you, gentlemen.
    Mr. Cummings. Let me just say to the Members of Congress 
who came today. I want to thank you very much. We hold these 
hearings all over the country and this is the best 
participation of Members that we have had, and I really 
appreciate you all being here, even the two that had to leave 
just a little bit early, but they stayed 95 percent of the 
time, and so I really appreciate that.
    I also want to take a moment to thank Ms. Richardson, 
because without her, this hearing would not have been held. I 
want to thank her again for her leadership, and she may have 
some closing words, and then I will close out the hearing.
    Ms. Richardson, I yield to you.
    Ms. Richardson. Thank you, Mr. Chairman. Thank you for 
those very kind comments, and I would also like to thank my 
colleagues, Mr. Rohrabacher, Ms. Solis, Ms. Napolitano, Mr. 
Filner, and of course you, Mr. Chairman.
    People have no idea, being a Member of Congress, a lot of 
people talk about what we do and what we don't do, but what I 
would like to share with the public is in my nine short months, 
people have no idea how committed the Members of Congress are 
to do the best that we can, and that's evident by the fact that 
all these individuals you see here could be doing other things, 
we're in our district work period but they chose to discuss the 
most important economic issue in the nation today, and so for 
that, we are all very grateful.
    Mr. Chairman, thank you for assisting me with Chairman 
Oberstar, getting this done. I think now we have a lot to 
report back when we go back to Washington. Many questions that 
have been said, I think now we will have sufficient input and 
information, that we can go back and be true role models and 
active in this whole process as it rolls out.
    Also, I would like to thank the harbor commissioners who 
were here today. I see three of them that are still here, from 
the Long Beach area. We thank you for your kindness. And also 
to the port, both the Port of Los Angeles and Long Beach, but 
in particular, the Port of Long Beach for hosting us here, 
allowing us to be a part of this discussion and being willing 
to work with us.
    To the T&I staff, I want to say a special thank you to 
Mike, Elisa, and Christie. To the port staff, Samara Domininika 
and Sharon and Maricella, thank you. We could not have pulled 
this off. The Chairman said how great it was, and he is right. 
This is pretty unique, to do such an incredible job, let alone 
the short time frame that we had.
    And finally, I want to thank the staff that I work with, 
and I say work with. That they don't work for me, they work 
with me. For the short time that we have been together, Kim, my 
chief of staff, Matt Chiller who is here, Alex, William, Rosa, 
Tim, Dazha Genet and Henry--you guys have been amazing.
    As I close, I brought, in the true Long Beach fashion, 
something that we have that is pretty significant--well, it's 
representative of who we are here. We have that for each of the 
Members.
    And then finally, if you would indulge me, Mr. Chairman, I 
have something special for a staff member of mine. His wife is 
expecting in eight weeks. We had much questions of whether he 
would actually be able to come and participate, but as our 
deputy chief of staff and leg. director, he was committed and 
that is how strongly he felt about this issue.
    So from all of us, we have a little baby outfit.
    Mr. Rohrabacher. I have got lots of extra baby outfits in 
my house, if he needs them.
    Ms. Richardson. And the baby outfit says: This is how I 
roll. So welcome Baby Chiller to our family. Thank you very 
much.
    [Applause.]
    Mr. Cummings. Let me close out now. I just want to make 
sure we have put all of this in context, and I often tell the 
story about how I was practicing law for a while, and I had a 
big settlement, and I went to my father, who only had a 4th 
grade education, was a former sharecropper. And I said dad, I 
have got this big, big problem. I don't know how to solve it. 
He said what is the problem? I said, well, I just won this big 
case and I am trying to figure out whether to get an Acura or a 
Mercedes. And he said I wish I had your problem.
    The reason why I say that is that I think we have to 
understand--I think Ms. Napolitano recited the history of all 
of this. It has taken a while for all of us to get here. But we 
are here. I mean, I think that is what we have got to keep in 
mind.
    You have come a long way. And I know that she said is so 
true. That a lot of people, pressure was coming from here, a 
lot of discussions, probably people who didn't, never dreamed 
that you would get to this point. And I have got to tell you, 
that if you look at it from a football analogy, I think you are 
about on the 10 yard line, and you have got about 10 yards to 
go.
    But the fact is is that you have come a long way, and the 
question now is is how are we going to get over the goal line. 
And people will differ as to how to go about it. Others will 
differ as to how they want to handle the issues, where the 
money should go and all of that.
    But let us not lose sight of this is our watch. This is our 
watch, and we have a duty to create an environment which is 
better than the one that we found when we came upon this Earth, 
or got into the offices that we are in. That is why I was so 
moved by the testimony with regard to the health of people. 
Sometimes I think we forget about, you know, that these folks 
are working hard. They are working every day, and they are 
giving their blood, their sweat, their tears, and then they end 
up, sometimes at 40, 45, you know, even earlier sometimes, in 
terrible condition because of certain conditions.
    So I think the issue here is we are trying to balance 
making sure our ports are viable and strong, and on the other 
hand, we are trying to make sure that we deal with this 
environment. And I am telling you, this has been an eye-opening 
hearing for me, and I am sure, as Ms. Richardson has said, it 
gives us a lot to take back.
    How this will be a part, if at all, when we go in to do the 
new ICE-TEA bill, as Ms. Napolitano was talking about, we are 
not sure exactly how it will be affected by that.
    But one thing is for sure. This is something that you have 
put on the table, and you ought to be proud of it. I don't want 
to see you so caught up in our trying to figure out how we are 
going to do everything, that we could get, that we are on the 
10 yard line.
    So I say that, as one who does not live in this region. And 
when I read the testimony, when I have read the testimony, and 
I have talked to my colleagues, and particularly Ms. 
Richardson, I tell you, I can hardly get down the hall without 
her talking about this issue.
    But she says, over and over again, this is a very, very 
important issue for all of us. And it is.
    So to all of you, I want to thank every single person who 
took up the time out of your busy schedules to be a part of 
this. This is what democracy is all about. This is it. This is 
it. People can talk about and say, oh, I want to be a part of--
this is it, you are in it, and you are participating.
    And so if you have comments, we welcome those comments. 
Unfortunately, the way the hearing structure is, basically you 
just have the Congress folks listening to our panelists and 
asking questions. But if you have things that you have heard 
here today, that you want to share with us, please do, and let 
us take them into consideration.
    And to all of our witnesses, if you have additional things 
that you want to comment on, please get those to us too.
    Thank you very much. May God bless our great country.
    [Whereupon, at 6:25 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
